<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND
                 HOUSING  AND  URBAN  DEVELOPMENT,  AND
                  INDEPENDENT AGENCIES APPROPRIATIONS
                                FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION

                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES

                    JERRY LEWIS, California, Chairman

TOM DeLAY, Texas                     LOUIS STOKES, Ohio
JAMES T. WALSH, New York             ALAN B. MOLLOHAN, West Virginia
DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
MARK W. NEUMANN, Wisconsin           
ROGER F. WICKER, Mississippi         

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full    
  Committee, and Mr. Obey, as Ranking Minority Member of the Full       
  Committee, are authorized to sit as Members of all Subcommittees.     

Frank M. Cushing, Paul E. Thomson, Timothy L. Peterson, and  Valerie    
  L. Baldwin, Staff Assistants
                                ________

                                 PART 1

              NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 40-219 O                   WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director





 DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 1998              

                              ----------                                

                                           Wednesday, February 26, 1997.

             NATIONAL SPACE AND AERONAUTICS ADMINISTRATION              

                                WITNESS

DANIEL S. GOLDIN, ADMINISTRATOR

                       Chairman's Opening Remarks

    Mr. Lewis. Welcome, ladies and gentlemen. This morning it 
is my pleasure to welcome Mr. Dan Goldin, Administrator of the 
National Space and Aeronautics Administration, to the 
committee's hearings for the fiscal year 1998 budget request of 
$13.5 billion.
    The committee has a number of concerns with the programs 
included in the budget request. The primary concern is the 
status of the International Space Station. Over the past year, 
the Russian Government has made a number of promises to the 
Space Station partners, and it appears that most of those 
promises have been broken.
    Today we find ourselves 9 months from launch of the first 
element of the Space Station, yet we have no firm plan to 
ensure that critical follow-on elements will be delivered in 
time to make the station a viable project.
    I traveled to Russia, you may recall, Mr. Administrator, 
with Mr. Sensenbrenner in January of 1996, over a year ago, 
where we conveyed to the Russians our concerns about their lack 
of progress on the service module. My message was simple and 
rather succinct: A deal is a deal. And the Russians, it would 
appear, are not living up to their part of the bargain.
    Last week Mr. Sensenbrenner returned to Moscow and found 
the situation to be no different than a year ago. I am 
concerned that the current situation in Russia will cause an 
erosion of support for the program in this country and result 
in serious problems when we take this appropriations bill to 
the House floor probably sometime in June. We do not have the 
luxury of a lot of time, so we need to know very soon how the 
problems are going to be resolved. We look forward to hearing 
your recommendations today.
    Mr. Goldin, let me say that you and I have had not just a 
very positive working relationship; we have had a number of 
discussions that, while not off the record or closed, 
nonetheless were personal sessions. And so I have heard a good 
deal of the work that you went about dealing with, especially 
the Russian problem. But this meeting is for the public record. 
We will begin to build a pattern of public understanding of 
where we are and what the contingencies are that are available 
to us.
    So we look forward to your statement for the record. All of 
it will be included, of course, and from there I expect we will 
have a lively exchange. Welcome.

                 Administrator Goldin's Opening Remarks

    Mr. Goldin. Thank you, Mr. Chairman. I am very pleased to 
have the opportunity to appear before you this morning.
    I want to start out by noting where we were last year in 
the budget process. As you remember, there was great concern 
about the outyear budget estimates.
    The President said then that the outyear figures were not 
set in stone, and I told you we hoped to do better. I am happy 
to report that we have. The President's fiscal year 1998 budget 
request of $13.5 billion and the funding plan for the outyears 
will give America a robust space and aeronautics program.
    Some people will tell you NASA needs more to have a strong 
program. I am not one of them.
    The President has shown enormous confidence in us, and I am 
very proud of that. He has given us a meaningful budget, and he 
has shown us he thinks we can do more for less. He is right. We 
can, and we will, and we are.
    In 5 years, we have turned an average program cost growth 
of 77 percent to underruns of 6 percent. We have cut the number 
of civil service employees by 5,000 since 1993. We have cut the 
spacecraft cost from an average of $590 million in the early 
1990s to $190 million today. We cut the shuttle operating costs 
while increasing safety. I could give you hundreds of examples.
    We are using our budget reductions to become smarter and 
more efficient. We support you in your task of cutting the 
Federal deficit. We are proud of what we have done to cut the 
Federal deficit. We are stepping into the new era of smaller 
government.
    We are also remaining true to what America wants and needs 
from its space and aeronautics program. We are taking risks. We 
are doing the hard things, the uncomfortable things that 
stretch us as an agency and a country.
    I want to tell you a story of our recent Hubble Space 
Telescope----
    Mr. Lewis. I wonder if we could just interrupt your 
statement right there. We kind of summarized at the beginning, 
and I am sorry to do this to you, Dan, but in my excitement 
earlier in wishing my colleague Lou Stokes a happy birthday, 
which was on Sunday, I was so involved with that I neglected to 
even say hello to him here formally for the record. And he may 
very well have a statement for the record, too.
    Lou, welcome, and happy birthday.
    Mr. Stokes. Thank you very much, Mr. Chairman. It is a 
pleasure to be back with you and all the other members of our 
subcommittee.
    I do have an opening statement. Thank you.
    Mr. Lewis. I apologize.

                Ranking Minority Member Opening Remarks

    Mr. Stokes. Sure. Thank you.
    Mr. Chairman, as we start the fiscal year 1998 hearing 
process, I want to join with you in welcoming the 
Administrator, Mr. Goldin, and his supporting team from NASA. 
We look forward to working with you as we move through what 
will undoubtedly be another very difficult budget year.
    I also want to extend a very special welcome to two new 
members on our side, neither of whom are here yet because they 
are both in other subcommittees. But as you know, we have Mrs. 
Carrie Meek of Florida and Mr. David Price of North Carolina, 
both of whom were formerly members of the appropriations full 
committee, but they are new to this subcommittee. And we will 
appropriately welcome them when they are able to join us this 
morning.
    Mr. Administrator, you have been widely quoted indicating 
you are generally pleased with NASA's budget for fiscal year 
1998 and especially for the succeeding 3 or 4 years. This is 
understandable. When compared with the projections of last 
year, NASA fared much better than had been estimated. However, 
there are no guarantees that NASA will receive the amounts 
contained in the 1998 budget or projected for the outyears. 
Already, the Congressional Budget Office has determined that, 
based on its analysis, the President's budget will not result 
in a budget surplus of $17 billion in 2002 but, rather, a 
deficit of approximately $50 billion. In addition, there are 
several user fees and other proposals in the administration's 
budget, both for 1998 and the outyears, that based on prior 
experience are unlikely to be agreed upon by the Congress.
    In addition, primarily due to tremendous increases for the 
Department of Housing and Urban Development Section 8 contract 
renewal effort, the total discretionary budget authority 
request before the VA-HUD Subcommittee this year is $7.5 
billion higher than last year. Unless special adjustments are 
made to the budget resolution and in the Section 602(b) 
allocation for this subcommittee, such an increase seems 
unlikely. The subcommittee will then be forced either to 
terminate hundreds of thousands of Section 8 contracts with the 
attendant eviction of tenants or spread the pain around to 
other agencies funded in this bill.
    I do not make these comments in an adversarial or 
confrontational manner, but just as an observation of some of 
the difficulties that we face this year. Today marks the start 
of what will probably be a long and arduous task for this 
subcommittee to craft a bill that can garner sufficient votes 
for passage in both Houses and be acceptable to the 
administration.
    We have many issues to discuss in the next two days, and I 
look forward to a forthright and open dialogue as we proceed. 
And I notice now that Mr. David Price of North Carolina, whom I 
had mentioned earlier, Mr. Chairman, has now joined us, and we 
want to extend to you, David, a very warm welcome to this 
subcommittee. As I mentioned earlier, you are a former member 
of the Appropriations Committee and a very valued member of our 
committee. We are happy to have you join us.
    Mr. Price. Thank you very much. I am very happy to be here.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Louis.
    Now, Mr. Goldin, back to that story.

                 Administrator Goldin's Opening Remarks

    Mr. Goldin. Okay. We are taking risks. We are doing the 
hard things, the uncomfortable things that stretch us as an 
agency and a country. And now let me tell you the story of our 
recent Hubble Telescope mission because it says a lot about 
what NASA is about today.
    Before the mission, there was a hue and cry from some 
quarters. Why mess with something that isn't broken? Why take 
the risk?
    In fact, and I quote, someone said, ``If it ain't broke, 
don't fix it,'' to which I say, first, that's bad English and, 
secondly, that is bad thinking.
    We took the risk because of the incredible possibilities it 
might open up. We took it because of what we might discover and 
what the world might gain. Our ground crew and astronauts were 
superb. They were magnificent. With surgical precision they 
fitted the Hubble with state-of-the-art technology that will 
extend the human gaze even deeper into the universe.
    They also used parachute cords, alligator clips, thermal 
blankets, and remarkable ingenuity to repair torn insulation 
they had not expected.
    We will not know how successful the mission was in terms of 
the science for a few weeks, but at NASA, we considered it a 
success before our crew ever left the ground.
    Before we launched, I called the crew to say how proud I 
was of them. They had trained hard. They had gone through all 
their paces and mastered each step.
    The astronauts and our people on the ground did everything 
they could to get ready, and they did it with great discipline 
and courage. They accepted risks. They were confident of 
success but prepared for failure. It comes with the territory 
at NASA.
    When you attempt something bold, when you attempt something 
amazing, you might fail. You just keep trying.
    You know the outcome of the mission: five beautiful space 
walks, a new, improved Hubble, the hope of fascinating new 
glimmers in the cosmos.
    I might point out, Mr. Stokes, we are prepared to work with 
you and this committee. NASA has never stepped away from a 
tough situation, and there were a number of years when the 
President and the Congress asked for budget cuts. The space 
community wanted more money, and I agreed to go for less. We 
will do what is right. If I believe a safety implication is 
involved, if I believe it will hurt basic science for the 
future of this country, I will so tell you. But I want you to 
know we are prepared to wrestle with you. We cannot go to the 
polls and ask for a balanced budget--we cannot go to the polls 
and ask for hope for all our people--without working together. 
We are committed to working with you, Mr. Stokes.
    I want to thank this committee who helped make all this 
possible, and I want to close by thanking you, Mr. Chairman, 
for your support. The Congress, led by this committee, gave us 
the stability we asked for in fiscal year 1997. You have 
remained committed to a space and aeronautics program worthy of 
the greatest space-faring Nation in the world. And you have 
done it during some very difficult times.
    We appreciate your support, and we will assure you that we 
will continue to do our best to deserve the confidence that 
this committee and the President have placed in us.

                        service module schedule

    Mr. Lewis. Thank you, Mr. Goldin.
    For members of the committee, we will attempt to stay as 
close as we possibly can to the 5-minute rule so that all 
members have a chance to participate, and with that, I will 
proceed with questioning.
    The Russian Government is responsible for construction and 
financing of the third element of the Space Station, the 
service module. Mr. Goldin, what is the current schedule for 
completion of the service module, and will that scheduled 
completion date support the first two elements which are 
scheduled for launch in November and December of this year?
    Mr. Goldin. I will tell you what I know. I cannot tell you 
the final details. I think we are some weeks away from that. 
The Russian Government told us that they would be ready to 
launch it in December of 1998. They are going to attempt to see 
if they could pull that schedule up.
    I am not heartened by the visit that Mr. Sensenbrenner and 
his other committee members made to Russia. We are preparing to 
send an investigative team to Russia the second week of March. 
I am planning at this time on being in Russia approximately the 
first week in April. We will sit and understand, because at 
this point in time promises no longer count. It is actions that 
count. And a partnership means a partnership. People have to do 
what they say they are going to do.
    While I am very sensitive to the issues in Russia, I have 
the responsibility of making sure we build the Space Station. 
So I will get the information to you as I have it.
    It is my assessment we will not see the service module 
before December of 1998, and perhaps even later. Towards that 
end, we are preparing contingency plans in this country, and we 
are looking at a variety of approaches. We are not done with 
it. But I believe by the end of the month, and then after I 
take my trip to Russia, I will be able to be much more 
specific.

                            contingency plan

    Mr. Lewis. Mr. Director, this last week one of our 
astronauts, Franklin Chang-Diaz, was in my district, and we 
spent a good deal of time together. One piece of that--by the 
way, a very, very outstanding reflection of the people we have 
aboard in NASA. But one of those discussions took us to 
contingencies. He essentially was saying that he was pleased 
that the agency had gone forward with contingencies in view of 
some of the obvious difficulties that most who pay any 
attention know about.
    Nonetheless, our visit was over a year ago. We have been 
talking about contingencies, and it is very clear that we are 
having great difficulty having the Russians commit to a 
specific line. So would you describe for us--you have described 
for me in other discussions a line in the sand. Would you 
describe for us where the line is and what some of those major 
contingency alternatives are?
    Mr. Goldin. Yes, I would be pleased to do that.
    We cannot have thousands of people all over the country 
waiting to hear from Russia every week as to whether or not 
they get the financing. So it is our intention at this time to 
make a very hard decision based on the best information we have 
during the month of March and to validate that the first week 
in April, and then we will be able to come forward with a very 
specific plan which we will clear with the White House and the 
Congress and our international partners. We cannot take 
unilateral action. We must work together.
    Let me tell you the aspects of this contingency plan, and 
many elements are already in place. For example, if we do not 
have a service module that meets habitability capability in our 
laboratory, we have already built that into the program. We 
have a variety of other contingency activities we have already 
built into the program. Right now our problem is the service 
module handles orbit raising and altitude control, which is 
crucial for the functioning of this system.
    We had talked to the Russians about an FGB-II module, but 
that will be too expensive and, we feel, also disruptive to the 
Russians building the service module. They do not have enough 
people. So we are dropping that option. No final decision, but 
we believe we will drop that option.
    What we are looking at now is just making minor 
modifications to the unit we already own, the FGB-I. We paid 
for it. We own it. And with minor modification, we believe we 
could handle the Space Station through Flight 7A. That gives us 
tremendous flexibility. We think that that should cost tens of 
millions of dollars, not hundreds of millions of dollars. Keep 
in mind we also are remaining very frugal. We could have solved 
this problem a year or two ago and have committed three-
quarters of a billion dollars, and we count nickels and 
pennies, and we are not prepared to do it. So that is one of 
the approaches we are looking at.
    We also believe we need an approach in America, so we are 
working with the Naval Research Laboratory, and the Naval 
Research Laboratory has another alternative, which is called 
the interim control module, based on an existing system that 
they believe they could get up in orbit by October of 1998. So 
we are exploring that possibility, too.
    In addition, we are looking at a longer-term solution which 
is called a propulsion module, which would be built either by 
the Naval Research Laboratory or NASA Marshall or a combination 
of the two. Those are the series of things we are looking at.
    Finally, given that money is a very crucial aspect of all 
deliberations, we want to get one final understanding on 
whether or not the Russians are going to deliver, because if 
they do deliver, it could help us avoid spending money. This is 
why I feel it is necessary to provide the full set of options 
to you. Some options hold the schedule, and I want to also talk 
about first element launch schedule.
    There are some who would say, well, let's launch the first 
element because we are ready. I feel we should not do such a 
thing. We should only launch if there is a reason for launch. 
To launch something into space to meet an arbitrary schedule 
date and then have it sit in space for 6 to 9 months makes no 
sense. So I have asked our people to take a look at the 
advantages and the disadvantages of holding first element 
launch.
    The most important thing to me is holding the end date and 
not letting the end date slip too much. The end date, if it 
slips too much, results in costs. So those are the trades that 
we are looking at. Those are the options that we are looking 
at.

                            launch schedule

    Mr. Lewis. As I listened to those last remarks, it sounds 
to me like slipping is an awful lot bigger word than it was in 
our former discussions. But presuming the November, December 
schedule that was the original schedule that we were discussing 
with the Russians, presuming that we keep that schedule, how 
much funding would be required to meet that schedule?
    Mr. Goldin. The basic schedule?
    Mr. Lewis. The first two elements which were scheduled for 
November, December. How much money is required to keep that 
schedule?
    Mr. Goldin. We will live within our existing budget in the 
baseline program. Any funding outside of that we believe will 
fit within the total NASA funding request. If we take a look at 
the range of these options that I defined to you--the FGB-I, 
the interim control module, the propulsion module, that range 
of options goes from on the low end of some hundreds of 
millions to the high end of about $600 million. That would be 
the range.

                      launch schedule allocations

    Mr. Lewis. As we look forward to that line, another line in 
the sand in April on your visit to Russia, I hope we might 
clarify for the record some of the pieces of that question that 
we would like to have in the record, that is, the actual dollar 
allocations to meet that schedule. Within the overall budget, 
there are some specifics that we would like to have.
    Mr. Goldin. I am sorry. I did not understand the question.
    Mr. Lewis. Very specifically, assuming we keep the launch 
schedule in November and December, how much funding will be 
required to meet that schedule?
    Mr. Goldin. If we hold the first element launch and we are 
able to deliver the interim control module--see, the problem I 
am having is there are permutations to that, and I do not know 
how to answer the question. There are various permutations, and 
that is what I am trying to understand. Maybe I do not 
understand question.
    Mr. Lewis. Well, I am looking primarily for Russian 
funding.
    Mr. Goldin. Oh, how much money would go to Russia? Is that 
the question? I am sorry. I did not understand.
    Mr. Lewis. They seem to do very well in programs where we 
deliver money to them.
    Mr. Goldin. Right. Okay. I am sorry. I did not understand 
the question.
    Now that we think we will be dropping the FGB-II option, 
the FGB-II option would have cost hundreds of millions of 
dollars, and that money would have gone to Russia. And that is 
what we had talked about in prior meetings.
    That decision is probably a week away. But given that we 
drop that option, the amount of money that might go to Russia 
for all these other options will be measured in tens of 
millions of dollars, and that would be to just take some 
American navigation equipment and install it in our FGB-I 
module. But we do not think it would be more than tens of 
millions of dollars. I am sorry. I did not understand the 
question.
    Mr. Lewis. To just follow up on that a bit, has any of the 
funding been released to the prime contractor and the 
subcontractors?
    Mr. Goldin. In Russia? Yes and no.
    Mr. Lewis. Okay.
    Mr. Goldin. We were very, very concerned about the funding 
situation in Russia relative to the service module. We have a 
contract with the Russians for Phase I of the Space Station 
program, which is the Shuttle/Mir missions, and Phase II, which 
takes the assembly through Flight 7A. Because we knew that 
there would be some gap between the time the Russians said they 
would do the funding and actually deliver on it, we did not 
want to lose any time to hold the service module. So we 
renegotiated the contract with the Russians to make $20 million 
available in the existing contract so that they could get money 
to their sub-tier suppliers who were on the critical path. The 
first release of that was about $11.4 million, if I remember 
correctly. Is that right?
    Mr. Trafton. $11.9 million.
    Mr. Goldin. Then there is another release of about $3 or 4 
million, and then another release of $3 or 4 million. We ask 
the Russians at release points to validate that they did the 
work that we said we would do.
    We are coming close to the next release point in March, and 
then there will be a third release point in April. That money 
will have to be replenished by the Russians for the Shuttle/Mir 
mission to continue in its last few flights. So, if you will, 
we did not take any new money from our contract with the 
Russians. We just reprogrammed the money within the existing 
contract to hold the program on schedule.
    Other than that, there have been no other funds allocated, 
and we will not release any funds before communicating with 
this committee and the Congress.
    Mr. Lewis. Mr. Goldin, I have some additional questions 
regarding the service module. I may get back to you or I may 
ask you to respond for the record.
    Mr. Stokes.

                     aeronautics research programs

    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Chairman, I would note that Mrs. Meek of Florida has 
now joined us.
    Mrs. Meek, you might know that prior to your arrival, the 
chairman accorded me the privilege of acknowledging the fact 
that you are now on this subcommittee, and we welcome you, a 
very valued member of this Appropriations Committee, and we are 
happy to have you with us.
    Mrs. Meek. Thank you so much. I am privileged.
    Mr. Stokes. Thank you.
    Administrator Goldin, you have announced that you are 
reprogramming $500 million in previously appropriated NASA 
aeronautics funds to pay for NASA efforts on aviation safety 
and security and the changes we made in task and personnel 
assignments at NASA facilities to accomplish this. Is that 
correct?
    Mr. Goldin. That is correct.
    Mr. Stokes. All right. Tell us what will be the impact on 
current aeronautics research programs.
    Mr. Goldin. We will be reviewing that over the next months 
ahead. Most of it will be reprogramming within the R&T base, 
which is funded on the order of $400 million a year, and will 
be a reassignment of people and projects within that base.
    Mr. Stokes. What will be the impact on current aeronautics 
research programs?
    Mr. Goldin. It will be a reprioritization of those programs 
to acknowledge the challenge that the Vice President of the 
United States has asked us to undertake. I view this as an 
honor.
    If you will take a look for the last decade, the crash 
rate, the fatal crash rate for planes has remained flat. It has 
not come down.
    Over the next two decades, it is anticipated that there 
will be a tripling in the number of takeoffs from planes, and 
if we do nothing, the American public will see a major crash 
every week, which will be very disruptive to air travel.
    The Vice President has asked NASA to lead the research 
activity on a national basis to see if we could cut the crash 
rate by 80 percent in the next 10 years and by a factor of 10 
in the next 20 years. This is so crucial to the vitality of the 
Nation, very tough. A lot of people said why are you signing up 
for such a tough goal, and I say we should. It is so crucial, 
we did not want to come back to this committee and ask for more 
money. So we said we would reprogram out of our existing 
resources because I could think of no more noble task for NASA 
to undertake than aircraft safety.
    Mr. Stokes. Will any NASA programs and activities be cut 
back in order to fund this?
    Mr. Goldin. Yes.
    Mr. Stokes. Can you tell us which activities andprograms 
will be cut back?
    Mr. Goldin. At this point in time, we can't because we are 
undertaking the reprogramming analysis right now, but again, I 
want to come back and say that we feel that aircraft safety is 
so important that it ought to take a role and cause us to 
reprioritize.
    The issue we face now, given that there are limited funds 
in the Nation, is a reprioritization, rather than coming back 
and asking for more funds.
    Mr. Stokes. Is carryover a part of this whole situation?
    Mr. Goldin. I do not believe so because the aeronautics 
enterprise, Dr. Whitehead, has done an outstanding job in the 
management of uncosted carryover. He is one of our super stars.
    Mr. Stokes. When do you anticipate that you will furnish 
this subcommittee details relative to this program?
    Mr. Whitehead. Sir, we have a NASA industry task force that 
held its first series of meetings last week. We think that by 
the early summer or the beginning of May or June, we will have 
a scenario that shows where we will reprogram.
    If I could, I might mention that within our R&T base, our 
normal completion of task is somewhere between 15 and 20 
percent a year, and in the R&D account to take on this 
challenge, it requires a balance of 10 percent. So it won't 
impact termination of task so much as an interface with the 
safety research task at the completion of other tasks, 
primarily in the aircraft performance.
    Mr. Stokes. You would anticipate, would you not, on the 
carryover, some of the centers would be affected?
    Mr. Whitehead. Some of them won't be affected as much as 
some of the reserves that we carry that we used, and it will 
increase the risk in some programs.

                           minority employees

    Mr. Stokes. Thank you.
    Mr. Administrator, I want to engage on a topic you and I 
discussed the other day. You remarked that although NASA has 
done a pretty good job of hiring women and minorities, there is 
no room for complacency.
    As you know, many of the minority employees at NASA are 
women and lower-level administrative jobs. In an evermore 
complex and computer-dominated workplace, unless these 
employees continue to learn to develop new skills, they will be 
in danger of losing their jobs in the future.
    I would like to hear more of your thoughts about how to 
confront this challenge, especially in a concerted training 
effort with the National Science Foundation and the University 
of Southern California, among others.
    Mr. Goldin. This is a major problem and not just for NASA 
headquarters, but for America.
    In the last 10 or 15 years, there has been a significant 
gain on the part of minority employees to get into the work 
force. This happened at NASA about 10 or 15 years ago. They 
came into the work force with a very, very small tool set in 
terms of advanced training, in the clerical, secretarial, and 
administrative domain.
    As the information technology kicks in, the need for 
clerical, secretarial, and administrative personnel goes down, 
and they are the first to be on the lines for destaffing and 
loss of jobs.
    As part of the Zero Base Review, we have undertaken a look 
at this problem to try and anticipate, and what we saw at NASA 
headquarters is we had about 130 to 170 people that we have to 
downsize over the next 3 years. About 100 of them were women, 
many of them single parents, that fit into this category.
    So what we have done is gone out and talked to a variety of 
organizations and agencies to see how we could develop their 
skills, and it turns out that we have new information skills 
necessary at NASA. Of course, we are going to put in a new 
integrated financial management system.
    So, rather than laying off these employees and then hiring 
new employees at a higher skill level, we are going to set up a 
very unique training program. We are going to work in 
cooperation with other Government agencies, with other 
universities to train these employees, and the first training 
program is going to start in months. It is going to be 
voluntary, and we hope that by the fall of this year, we will 
have trained 50 to 60 of these women, and they are mostly 
women, to move up to higher-level jobs.
    We will then take that pilot program, and hopefully, it 
will glide across the agency, and make that data available to 
corporations.
    Mr. Stokes. I believe you mentioned that funding of 
approximately $10 million annually could go a long way in 
addressing this challenge. Is that correct?
    Mr. Goldin. We don't have the exact number, but it might be 
on that order.
    Mr. Stokes. Good. Does your budget contain any funding for 
those programs?
    Mr. Goldin. Right now, at this point, it does not, and we 
are in an evaluation process to try and understand the actual 
cost.
    We have contacted the University of Maryland, Howard 
University, and George Mason University. They all three 
indicated a willingness to work with us to custom tailor a 
program, and now we have to go into the costing. So we are on 
the front edge of this, and I believe within about 2 months, we 
will be able to get back to you.
    The first class, we have the cost to cover it. It is what 
happens as we spread the program out, and we have time to work 
that.
    Mr. Stokes. Now, part of your analysis there is or is not 
the fact that you are looking for areas in which you could get 
the money. Is that a part of your role?
    Mr. Goldin. That will be part of our analysis.
    The initial money, we have, but when we want to expand the 
program to other NASA centers and to other areas, we are going 
to need some more money, and I believe we will be ready for 
that in 1 to 2 months to talk to you in specifics.
    Mr. Stokes. All right. Well, I think there are several 
areas, illustrative areas that I would like to suggest to you 
where I think we could find the money, areas where you did find 
in your budget to put what I think is excessive money.
    Mr. Goldin. We will be pleased to work with you.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Stokes.
    Mr. Knollenberg.

                          financial management

    Mr. Knollenberg. Mr. Chairman, thank you.
    Mr. Goldin, good to see you again. Thanks for coming before 
the committee. We get entertained by you, I think, a couple of 
times a year or something like that.
    One thing I do want to----
    Mr. Goldin. I hope illuminated, too.
    Mr. Knollenberg. Illuminated? Well, in fact, illumination 
is what I wanted to get into here on a couple of things.
    I credit you with running, I think, a shop that you set 
out, you blueprinted, and you stuck pretty close to precisely 
what you aim to do, and so if we had that kind of cooperation 
from every single group or agency that comes before us, I think 
balancing the budget will be a lot easier.
    Incidently, we have from Michigan, not too far from my home 
town, an astronaut who is currently in the Space Station, and 
so----
    Mr. Goldin. Dr. Jerry Linenger.
    Mr. Knollenberg. Yes, from Wayne State, you probably know.
    In reference to after having said those nice things about 
you, let me look at a couple of things that I don't understand 
and I think perhaps you or one of your designees can explain 
this to me.
    Mr. Goldin. We must be accountable to the Congress, and we 
welcome your questions.
    Mr. Knollenberg. I understand. I believe the budget rated 
fairly well in terms of the numbers, but where I get a little 
bit lost is your terminology on ``estimated,'' ``uncosted,'' 
and ``obligated.'' I am looking at a sheet, for example, that 
was passed out to me that describes that of the $1.8 billion 
that is available for the Space Station, there is some 54.7 
that is stated as unobligated as of 9/30/96. Is that the same 
thing as an unspent balance? Is that a separate firewall 
between the----
    Mr. Goldin. Yes.
    Mr. Knollenberg. What is it? What are you doing out there?
    Mr. Peterson. Basically----
    Mr. Goldin. Could I? Let me give an overview, and then I 
would like Mal to give you the specifics, as he is the NASA 
comptroller.
    We have a problem at NASA, and it is bigger than the Space 
Station program, and I just want to lay the problem on the 
table in the broader sense.
    When I came to NASA, I found we had outstanding people, but 
we had management systems that didn't help these people. The 
GAO did a study in '92 which said of our top programs, top 29 
programs, the average cost growth was 77 percent. That was 
because NASA was allowing the requirements to change before 
they got frozen.
    The managers at NASA didn't sign a contract with the 
administrator on cost, schedule, and performance, and many of 
our contractors said, well, let's buy in because if we launch 
it and it works, it is successful, and everyone will forget the 
sins of schedule and cost performance that doesn't work.
    So we put in a very rigid system, and that 77 percent cost 
growth is now an underrun of 6 percent. This is an amazing 
achievement, and the people at NASA are outstanding and they 
did it.
    If you will, we put tremendous fear in them on overrun. It 
will no longer be tolerated. Contractors are told if they 
overrun more than 15 percent, we could cancel a program and 
they will not get future business with NASA.
    What we have is an overreaction in one direction. People 
are so concerned that they----
    Mr. Knollenberg. They cut too much?
    Mr. Goldin. They didn't cut too much, but they held back. 
If there was any uncertainty, they would hold back reserves.
    If there was some uncertainty as to whether or not they 
should place a contract when the plants had placed a contract, 
they would wait until it was just right. This is good behavior, 
but in the process, we have got uncommitted funds that was 
budgeted and planned for allocation, but didn't happen.
    So now we are in the second phase of the process where we 
are telling people not only do we want you to perform in the 
long picture, but we want you to do what you say you are going 
to do in the rate at which the funds get allocated.
    So I want to openly tell you, we have a problem. I don't 
want to hold it back. But we have a series of steps that we are 
going to take to fix it, and we are on the path to good health. 
That is the reason you are seeing that.
    Mr. Knollenberg. And I see it on every single category, 
too, right down the line. So, apparently, it varies in size, 
and some of those amounts are fairly large. So the next step--
am I to believe that the estimated uncosted column is the 
obligated, but not expended over a multi-year period? Is that 
what it is?
    Mr. Peterson. NASA Comptroller, Mal Peterson.
    Obligated, of course, means that you have appropriated the 
funds to us----
    Mr. Knollenberg. Right.
    Mr. Peterson [continuing]. But we have not put them on 
contract. So we have not obligated the government to spend this 
money.
    Uncosted means that the contractor has got the funds. He 
has not done the work necessary to incur the liability for the 
Government to pay for the work that has been performed.
    So, when he performs the work, he incurs the cost. Now, the 
difference, then, at any time between what you have in terms of 
your budget authority and the amount you have costed, is the 
amount that is available for work to be performed.
    Mr. Knollenberg. For work to be performed.
    Mr. Peterson. For work to be performed.
    Typically, for instance, we carry over about $4.5 billion 
out of our appropriation into the next fiscal year.
    Mr. Knollenberg. That is about 4.4, I think I saw here 
somewhere.
    Mr. Peterson. Yes, and that has been a trend.
    Now, in terms of tightening up the financial management 
which Dan has talked about, is where we are actually trying to 
get more effective financial management so that we reduce the 
amount of uncosted carryover that we have at fiscal year end. 
That way, we allocate our resources to do research work.
    Mr. Knollenberg. That figure is higher.
    Mr. Peterson. Well, it is actually, statistically, over 
NASA's history not remarkably high. We have 2-year money and 
CofF money, which is construction money, which is, of course, 
no-year money. So you will always have a fairly significant 
carryover.
    Now, in terms of months, you are working with roughly 3 to 
4 months. So if you put the time perspective on it, it helps in 
the sense of looking at the fact that you should have a certain 
amount of carryover at the fiscal year end because not to do so 
would be putting you in violation of the----
    Mr. Knollenberg. Let me just insert another question, if I 
can, Mr. Chairman.
    Mr. Lewis. Sure.
    Mr. Knollenberg. I will move on because of the time 
situation. I have some other questions as well, which I maynot 
be able to get answered, but will submit.

                                buyouts

    In regard to the FTEs--and I know that you have provided us 
with a draft that sort of indicates where we are, and actually, 
where we are is sort of like in between those first two, I 
think. We haven't hit mid-fiscal year. Well, we are getting 
there, aren't we? We are pretty close. So I guess we are.
    My question has to do with the final area which involves 
the buyouts, the consolidation, the outsourcing, redeployment, 
and particularly, with buyouts. I think we have gone through 
this before, Mr. Goldin, but with respect to those buyouts, 
what are the requirements? What is the profile that you draw up 
to provide a buyout kind of situation? Does it have a years-of-
service requirement, and if so, how much? It probably has a 
salary factor that has to be adhered to. What kind of buyout 
provisions does an individual have? What are those specifics?
    Mr. Goldin. First, I would like to provide an overview, and 
then I will turn it over to Sam Armstrong who is in charge of 
this area.
    I made a commitment to our employees that I would like to 
avoid forced layoffs. It is so disruptive, and the people that 
go are just the people you want to keep. It is horrible.
    We have been able to downsize, voluntarily, 20 percent of 
our force, as 5,000 human beings are no longer with NASA. The 
buyout covered about 3 of those 5,000 people.
    Mr. Knollenberg. About 60 percent, then.
    Mr. Goldin. About 60 percent.
    So it is a crucial aspect. It is a tool in my tool kit that 
industry has, and industry has a much larger flexibility than 
we do, but it allows our employees to leave with dignity. It 
allows them to feel good, and it is also targeted to specific 
areas. We don't just have it broad-based.
    Initially, it was broad-based, and now we are targeting 
closer and closer to areas where we have a surplus of 
employees. So that is the philosophy.
    Sam, could you talk about the details?
    Mr. Armstrong. Spence Armstrong, the Associate 
Administrator for Human Resources and Education.
    The Zero Base Review that NASA did almost 2 years ago came 
up with an end statement in the year 2000 with a certain number 
by installation. So we looked at where we were today on that 
chart and where we wanted to go, and we counted the difference. 
That is where we targeted the buyouts.
    We asked each of the centers, each of the installations to 
come forward with their plan within certain kinds of 
guidelines, and they came back and we negotiated with them. For 
instance, some centers didn't offer a buyout at all. Others 
offered it to selected people. In a general rule, you don't 
offer it to anybody you have to replace. So they came in with 
their plans, and we set up a ceiling so that we would not go 
below the target workforce for the year 2000, and each of the 
centers came back in with their plan, and they executed it and 
liked it.
    It varied by center, who they offered it to. There were no 
restrictions in some cases who could take it. In other cases, 
there were. So each center was unique. We have that information 
which we could provide.
    Mr. Knollenberg. In the interest of time, that might be 
appropriate.
    I would like to know if the buyout approximates or mirrors 
what it has done in the private sector.
    Mr. Goldin. We can answer for the record.
    Mr. Lewis. If you would, that would be helpful.
    Mr. Goldin. By the way, this committee gave us the multi-
year authority to do the buyout, and I want to tell you, it has 
been essential. Our young people were terrified. It is not that 
I don't like middle-aged people because I am one, but many of 
us are going to retire in the years ahead, and if we lost our 
young people and the mature people retired, there wouldn't be a 
NASA. So this has been very, very valuable.
    Mr. Knollenberg. Thank you.
    [The ``Center Buyout Plans for FY 1997'' follow:]


[Pages 16 - 18--The official Committee record contains additional material here.]




    Mr. Lewis. David Price, welcome back to the Congress, but 
also, especially, this committee.

                     russian collaborative efforts

    Mr. Price. Thank you, Mr. Chairman.
    I would like to ask some questions as a new member of this 
subcommittee, but also as a veteran of some of the past battles 
over the Space Station on the House floor.
    As you recall, Mr. Administrator, you made a very 
convincing argument at the time that the authorization of the 
Space Station was at issue that this was a genuine 
collaboration with the Russians; that the Russians brought a 
great deal to the table; that this collaboration was valuable, 
both for their country and for ours; and that it was a 
collaboration in the fullest sense of the word and that we had 
a great deal to gain by proceeding in this cooperative fashion.
    Given that argument and given the experience of this 
collaboration since then, then the question obviously does 
arise. How much of all this is thrown into doubt by the current 
slippage in the schedule on their side and the current 
difficulties there, funding difficulties that our Russian 
partners are experiencing? Are we prepared to compensate? I 
know you touch on that in your statement. I would like to have 
you focus on that. Is the problem less severe than it might 
have been 2 years ago, had this kind of problem occurred?
    I guess my question goes to the state of this collaborative 
effort, what the Russians are now bringing to the table, how 
critical this is, and to what extent we are prepared to 
compensate if we must.
    Mr. Goldin. First, let me answer it technically, and then I 
will answer it philosophically.
    Technically, it is my opinion that had we not worked with 
the Russians and had the Shuttle/Mir flights, I am not sure we 
would have been able to build this Space Station. The Russians 
have taught us more than we have taught them. They have been in 
space for 10 years.
    Problems. We had never docked the shuttle to an orbital 
vehicle. It weighs a quarter-of-a-million pounds, and you 
allowed no more than 600 pounds on the docking force, as these 
two vehicles are traveling at 17,000 miles an hour. The 
Russians built the docking module for us and taught us how to 
do that maneuver.
    We have learned a tremendous amount about environmental 
control systems. One of the major scientific problems for the 
Space Station was the jitter that would be involved in that 
station as astronauts push off the wall or as the solar space 
twirl around. On the Mir Space Station, we have tested anti-
jitter equipment that now give us confidence in our science.
    We have done some remarkable things in biomedicine. We have 
operated the bioreactor for months, instead of weeks,and this 
technology is now being dispersed for cancer research across the 
country. It is impacting a lot of things.
    In biotechnology and drug design, the Russians have taught 
us a lot, and I am not trying to say that we don't know things 
in America, but the Russians have taught us.
    Secondly, when we went into this arrangement, we took $2 
billion out of this Space Station budget and accelerated its 
schedule by 18 months. The Russians have provided tremendous 
capability there.
    Now, are there problems? You bet. Do we want to hold them 
accountable? Yes, sir; but it is my estimation that the 
Russians still bring more to the program than less, and we are 
trying to work on the approaches that keep the program moving, 
and then when the Russians arrive, they will arrive.
    Philosophically, we have on this Space Station program 
probably the closest relationship with the Russians, our enemy 
for 50 years, than almost any other program in this country.
    When our astronauts go onto that Russian Space Station or 
they come to our shuttle, they genuinely respect each other, 
and we have learned a lot from it. You can't sit on both sides 
of the ocean and expect to go into the 21st century and just 
shoot press releases at each other. You have to learn how to 
work with the Russians.
    Now, I built weapons for 25 years. I am proud of that. It 
was part of the cold war activity, but I want you to understand 
we have got to do things differently in the 21st century. I 
believe NASA is tough enough, America is tough enough, that the 
risk is worth it.
    Could we fail? Yes, but think about what happened at the 
end of World War I, and this is outside of NASA. I am not 
speaking as the administrator now. I am speaking as a citizen.
    We watched as a Germany developed because we ignored them. 
The Russians are having genuine problems. They want to go from 
Communism to democracy and from a controlled economy to an open 
economy. It is a mess. There are tremendous problems in Russia, 
and I salute my peer, Yuri Koptev, in the midst of that chaos 
in being able to have an incredible launch record, high-quality 
equipment. Those Russian scientists and engineers are more 
frustrated than we are, and somehow as a nation, we have got to 
figure out how to work our way through it, and I will do 
everything I can.
    However, I do feel I have a fiduciary responsibility to the 
American taxpayer, and we must protect their precious funds. I 
can't give you guarantees, but I want to come back to what I 
said in my opening statement, which you may not have heard.
    People said we shouldn't fix the Hubble telescope because 
it already worked, but NASA went up and fixed it because we 
wanted to move forward, and at NASA, we are not afraid to take 
risks.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Price.
    We do have votes on the floor, but we do have some time to 
dwell. The other gentleman from Ohio, Mr. Hobson.

                        x-33/x-34 launch vehicle

    Mr. Hobson. I will try to be brief.
    Again, I salute this agency. I hope some day, we can put 
together a chart that shows where you have come from in the 
management so that the public really understands the systems 
and controls that have come into this agency in recent times, 
and I am glad you were reappointed as the administrator.
    You don't have to answer these now, but I am interested in 
the new X-33/X-34 launch vehicle because there is some risk in 
that. I applaud you for taking the risk because although we can 
have some problems, I think the benefits outweigh the risks.
    The most important concern I am hearing today, and I had 
this concern before I came to this hearing, NASA needs to think 
about a PR approach relating to the Russian funding problem 
with the space station. How you are going to talk to the 
Congress as a whole about this problem? There is great concern 
about this issue. You can hear it from everybody that is here.
    As we get into the battle over the Space Station, you are 
going to have to carry the ball, but we are, too, and we need 
to be prepared. I think we can do it, but you are going to have 
to help us through that as well.
    I think, also, on the Mission to Planet Earth, you have got 
to do some work on that, to talk to people about that, so that 
people understand the benefits of the program.
    Lastly, Mr. Stokes and I share an interest in the 
cooperative NASA student program. Last year, I raised some 
concerns with you about interagency relationships, and I am 
happy to see that Lewis and Wright-Patterson are not 
necessarily competing today, but they are trying to work 
together, and I think that is positive. I am interested in a 
NASA student program, the science, engineering, mathematics, 
and Aerospace Academy program. I am happy to see the expansion 
of this program at Sinclair College and Wright-Patterson Air 
Force Base. I hope it will reach some of these students that 
are underserved and we can get them into the program working 
with you.
    So I wish you well with these programs, and I am not going 
to take any more time, but you can elaborate later if you want.
    Mr. Goldin. Okay. Let me just say a few words. First, there 
is another aspect that I think is very important. In declining 
budgets, the DOD and NASA must work closely together.
    I have a meeting scheduled with General Estess, this 
Friday, to see how we could support U.S. Space Command, 
especially on things like the future Air Force which is going 
to have space planes. NASA has the responsibility for reuseable 
launch vehicles. So we are working in cooperation with them.
    I went out to the Phillips lab to see how we could 
cooperate better in the technology area, and it turns out that 
the DOD is now organizing, like NASA. They are combining space 
launch and aeronautics. We will now be lined up one for one, 
and as a result, I think we will do a much better job in 
working with the laboratory at Dayton.
    So I thank you for your support because I used your words 
in my discussions with the DOD, and they have been very, very 
cooperative with us. So I think we will be able to respond.
    By the way, we will crash planes and we will crash vehicles 
because you can't go into space and expect everything to work. 
Now, the first vehicles will not have people in it, but 
ultimately, there will be people, and if we want to treat the 
vehicles as being so precious that they will never crash, we 
will never fly. That was a problem for 25 years. We were so 
afraid of crashing, we didn't fly experimental vehicles.
    Mr. Lewis. I have indicated to Mrs. Meek that I would wait 
until after these votes before introducing her to thecommittee 
and taking up her questions. We have about 6 or 7 minutes left.
    I don't know. Mr. Frelinghuysen, would you prefer to wait?
    Mr. Frelinghuysen. I want to follow up on Congressman 
Hobson's comment on the X-33 program. Is that appropriate now, 
or do you want to wait?
    Mr. Lewis. It is appropriate, but if you are going to be 
able to come back, it might be----
    Mr. Frelinghuysen. I will be happy to.

                             service module

    Mr. Lewis. Okay. Before we close down, then, I would like 
to close out the service module, but then, I want you to know 
that we have a vote on the floor that is 15 minutes. I am not 
sure if the next vote is 15, but there are three suspensions. 
That will take us to roughly 12:30. So we will probably recess 
very quickly and then come back at 1 o'clock, if that meets 
with your schedule.
    Mr. Goldin. We will do whatever you want to do.
    Mr. Lewis. All right. Briefly, back to the service module 
issue, am I correct in understanding that you do not believe 
the Russians can complete the service module in sufficient time 
to keep the first and second element launches scheduled later 
this year?
    Mr. Goldin. If the Russians are able to launch a service 
module in October, which is one of the things they said they 
would look at, it is conceivable that we could hold the 
schedule, but I very seriously doubt it.
    Mr. Lewis. You are very skeptical.
    Mr. Goldin. I am very skeptical.
    Mr. Lewis. All right.
    Mr. Goldin. My sense is we are going to have to slip first 
element launch, but I am a scientist and engineer, and 
rationally, I want to go through the process. I want to be able 
to review it and then give you a specific decision rather than 
flipping back and forth.
    Mr. Lewis. It is very important for the record we have an 
idea what you really are thinking.
    Mr. Goldin. But it is my sense that the first element 
launch is going to slip.
    Mr. Lewis. Are any of the options you described earlier 
able to support launches this year?
    Mr. Goldin. Yes.
    Mr. Lewis. All right.
    Mr. Goldin. And that is, if the Russians really have the 
funding and they could deliver the service module in October.
    Mr. Lewis. All right.
    Mr. Goldin. But the probability of that is so low. I want 
to be candid with you and tell you my position.

                            fgb modification

    Mr. Lewis. We need that for the record, and I appreciate 
it.
    You mentioned that the current leading option is 
modification of the first element FGB. Do you expect the U.S. 
or the Russians to pay for those modifications?
    Mr. Goldin. Since negotiations are going on right now, I 
would prefer to be a little vague on that point until we 
understand what is going on.
    Mr. Lewis. I understand.
    Members, if it meets with all of your agreement, we will 
recess until 1 o'clock. Since we are going to have these votes, 
we wouldn't be coming back, anyway. So, in the meantime, I hope 
you all have a delightful sandwich.

                           Afternoon Session

    Mr. Lewis. The meeting will come to order.
    Mr. Director, for some time now, it has been my delight to 
enjoy, experience, provide, to share input from the gentlelady, 
Carrie Meek. It is especially a delight to have her now as a 
new member of this subcommittee, and it is my pleasure to 
recognize Mrs. Meek.

                          women and minorities

    Mrs. Meek. Thank you, Mr. Chairman.
    I must say that I want to say to the space people who are 
here, I have always supported your programs, and I hope I will 
be able to continue. I hope that being on this committee won't 
hurt my support of you.
    I need to go back to something that Congressman Stokes 
commented on, and it had to do with the participation of women 
and minorities. It seemed to me that your answer to him was 
based upon your current status of having those people who 
probably entered at the very beginning. Women and minorities 
probably entered at the lower level in NASA.
    So, as a result of that, they are pretty much now--because 
they were perhaps--this is my observation--perhaps lumped into 
those, perhaps, lower-level jobs. I just don't know how many 
you could have in management now, or when I look around this 
table, I don't see any, but I am sure there must be some in 
your managerial area.
    Of course, it just looks like NASA had a paucity of women 
and minorities in its management setup. If that were so, then 
we wouldn't be in the bind we are in now in terms of answering 
the congressman's question regarding that particular segment.
    Certainly, now with the cutbacks, it is going to be 
difficult, Mr. Director, to do what your heart, perhaps, could 
have mandated much sooner than now. As my mother would say, 
``be that as it may,'' I am hoping that you will be able to do 
a better job with what you have left. You have experienced 
quite a few cutbacks and reductions which will require RIF-ing 
a lot of people, and I can understand that.
    Mr. Goldin. We did not do a RIF.
    Mrs. Meek. Well, you cut, which is another word for RIF. 
You reduced staff.
    Mr. Goldin. Voluntarily, as compared to forced.
    Mrs. Meek. Well, if I were working for NASA, I certainly 
wouldn't have voluntarily quit unless there were some reason. 
There had to be some reason behind all of those people 
quitting, but anyway, that is nonessential here.
    I am concerned about--I am from Florida, as you know.
    Mr. Goldin. Yes.

                        reusable launch vehicles

    Mrs. Meek. So I am very concerned because the State of 
Florida is supposing to invest in the development of facilities 
at the Kennedy Space Center, and it would support your reusable 
launch vehicle, your RLV programs, and it will allow the space 
shuttle OMDP operations at the launch site, and ostensibly, 
this would save NASA and the taxpayers millions of dollars.
    Will NASA support this kind of partnership with State 
government?

                          women and minorities

    Mr. Goldin. Okay. Let me answer the first question. I came 
to NASA in 1992, April 1st. At that time, there were 26 
minority Americans in the Senior Executive Service.
    Today, even though the employment at NASA went down 5,000, 
there were 47 minority Americans in the Senior Executive 
Service. So we have almost doubled.
    There were 27 white women in the Senior Executive Service 
when they arrived, and today, there are 41. So, while we have 
been downsizing, we have been searching out the very best in 
the agency on merit, not just looking at the boundary of their 
skin, and we have made a significant change.
    In fact, we have in 5 years promoted as many minority 
Americans as in the first 35 years of NASA. So that is one 
statistic I ask you to keep in your mind.
    Secondly, while the population at NASA has gone down 20 
percent and minority Americans now make up 3 percent more of 
the labor force, and not less, we have been very, very focused 
and sensitive on this issue, always looking at how we could 
provide opportunities for people, and then, on top of that, we 
now have an African American who runs one of our NASA centers. We 
didn't have that before.
    We have senior African Americans reporting to the 
administrator, and I would like to introduce you to Mr. Ralph 
Thomas, who is the associate administrator at NASA for Small 
Business, and George Reese, right over there, and then we have 
Benita Cooper who is a Native American, and we have many, many 
minorities and women reporting to me.
    We have an Hispanic American who is the deputy director of 
NASA-Goddard, but we promote people based upon their ability to 
perform and their potential to perform. Clearly, we won't 
change it overnight, but I want you to understand my commitment 
to that.
    The other thing we have done is we have set up a training 
program to join the Senior Executive Service, and in those 
training classes, based upon a survey across the agency, we 
have seen very large numbers of minority Americans and women in 
that class based on merit, and they then become eligible for 
the next levels of promotions.
    And by the way, while the number of minority Americans went 
from 26 to 47 in the last 5 years, the total Senior Executive 
Service went from 547 to 386. So this is really bucking the 
tide. So the degree of difficulty was very difficult, but we 
are going to continue moving because NASA has to look like a 
mariner. That is my first point.

                        Reusable launch vehicle

    The second point, RLV investment. We want to work with the 
State of Florida. We believe that the NASA Kennedy Center is 
crucial to the future of this agency. There are a number of 
different space ports in States that are competing for the 
space business, and they are very, very aggressive.
    I met with some of the members of the Florida community to 
tell them there is now competition out there. The fact that the 
State is now wanting to step up and work with us, I think, is a 
terrific signal.
    So we are prepared to work with the State on a variety of 
issues, and we will do whatever is in the interest of the 
American people in terms of--is it the lowest cost, highest 
performance? By God, then we will make the decision to do it, 
one place versus the other.

                    orbiter maintenance down period

    Mrs. Meek. I'm glad to hear that. By your own studies, you 
have revealed that it will be cheaper to handle this kind of 
operation. Your own studies indicate that performing this kind 
of shows overhauls in Florida and the kinds of work that you 
are doing with them. It is the cheaper thing, and I am hoping 
that you will keep that in mind in terms if there is a cheaper 
methodology for reaching your goals, as stated by your own 
studies.
    Mr. Goldin. Well, let me say this. I think the study you 
are referring to is the one that was done by the----
    Mrs. Meek. It is called the OMDP.
    Mr. Goldin. OMDP.
    Mrs. Meek. Yes.
    Mr. Goldin. When that study was done, the study was done, I 
think, in 1995, and they costed out what we call a nominal or a 
routine OMDP. That is where they do just a check of the system.
    Some of the OMDPs that have been done since then are very, 
very comprehensive and need to be done in the factory and 
create flow problems with the work at Kennedy.
    We have been looking at this on a case-by-case basis, and I 
have asked our contractor, the USA Corporation, to make a more 
long-term finding, to take a look at a broader number of 
flights, and to see if it is worth making an investment in 
Florida or making an investment in California to perform this 
work with the highest reliability and lowest cost.
    We are going to ask the contractor to present the findings 
to us, and then we will share them with the various 
constituencies that are interested.

                       ksc--center of excellence

    Mrs. Meek. If I may go a little bit further. NASA 
recommended--you identified KSC as one of your--as the center 
of excellence for the kinds of activities in terms of the 
consolidation moves, I understand, that you are thinking about 
making, and you followed through on that recommendation, 
relative to move several launch and payload programs to 
Florida. You have not followed through on those, and as a 
Floridian, I would like to know.
    It seems to me that you may be looking in other areas, and 
I would just like to know what commitment do you really have to 
doing that consolidation with the KSC as the center.
    There were some recommendations made that you would move 
several launch and payload programs to Florida. Am I correct in 
that assumption?
    Mr. Goldin. Well, I will tell you what I do know. We have 
made a major decision to move the Space Station, a lot of the 
Space Station payload integration and system integration work 
to Florida, and we have a fellow named Tip Talone at NASA-
Kennedy who has done a superb job. Our contractor was not 
performing well in that task in another area.
    Another decision we have made is to put in a vacuum chamber 
at NASA-Kennedy. Apparently, in the mid-'70s, someone decided 
to take an incredible vacuum chamber and turn it into office 
space. It is unbelievable, and as a result, we were not vacuum-
testing our payloads before we launched them. Because this is 
the right place to do it, we will be putting in a vacuum 
chamber down at NASA-Kennedy.
    The third thing we have done at Kennedy is that we felt 
that any shuttle upgrades must involve the engineering people 
at Kennedy, and Joanne Morgan is now the associate director of 
NASA-Kennedy for shuttle upgrades, and they are working with 
the people at Johnson. So they are very much involved.
    Those are the things I know we have done. Those are the 
things I am absolutely committed to. If there are some other 
issues where you feel we made a commitment and didn't deliver, 
if I get the specifics, I will answer them for the record.
    Mrs. Meek. You mentioned in your testimony that your 
program is going to be delayed, and I would like to know if the 
program that you are referencing--I am not sure if I am right 
on this because I was a little late. What kind of ripple effect 
will it have on the rest of your programs, the consummation of 
the rest of your programs?
    Mr. Goldin. First, I said there is a possibility it will be 
delayed. We have not yet made that decision, and one of the 
reasons we are being very deliberate about this, as we want to 
understand, is that there would be a ripple effect.
    We have to understand the implications for the shuttle 
launch schedule. We want to understand the implications of the 
data that might be lost if we decided to slip it. So we believe 
that in the next 4 to 6 weeks, we will be in a position to 
answer that question more thoroughly, and I will make sure that 
we come and brief you before we move out.
    Mrs. Meek. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mrs. Meek.
    Rodney Frelinghuysen was at our meeting this morning 
anddidn't have a chance to ask questions. So, Mr. Frelinghuysen?

                   next generation of launch vehicles

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Goldin, good afternoon. Good to be with you. I join 
with my colleagues in saluting the work of you and your 
colleagues at NASA.
    I have some questions that relate to the X-33 program, the 
next generation of launch vehicles. How would you describe to 
the average citizen what the next generation is going to look 
like versus what we have now? Then I have some specific 
questions that relate to cost.
    Mr. Goldin. The first issue that we have is that, today, 
launch costs are on the order of $10,000 a pound, and the 
reliability is somewhere on the order of one part in 100, one 
part in 200 on the launch vehicles. The shuttle is probably the 
most reliable system we have.
    Our objective to opening the space frontier to commerce and 
science and national security is we have got to find a way of 
increasing the reliability of those launch vehicles by at least 
a factor of 10 or more and by cutting the cost by at least a 
factor of 10 or more.
    America hasn't invested in a new launch system in over 25 
years. The problem we have with the present ones are multi-
fold. First, there are two or three stages. For example, the 
shuttle has the strap-on rockets. It has the external tank. So 
you watch a shuttle launch, and first, the solid rockets come 
away. That is the first stage, and then the external tank comes 
away. That is the second stage, and third, you have the 
orbiter. You need a crew on each one of those stages.
    The Delta vehicle has three or four stages. The Atlas has 
three or four stages. The Titan has three or four stages.
    We are trying to utilize technology to see if we could 
build it like an airplane. You don't add anything on, you don't 
take anything off, and it takes off and lands, but that says we 
have to work with the most advanced structural systems in the 
world, and then we want to work on new engines. That is the 
concept that we are trying to perform for America. It is very 
risky. It has never been done before. We think we have a finite 
chance of making it.
    Mr. Frelinghuysen. Is the program on schedule to meet the 
1998 deadline?
    Mr. Goldin. 1999. March 1999.
    Mr. Frelinghuysen. 1999?
    Mr. Goldin. We just had a review out at the Lockheed-Martin 
plant. They have a few schedule problems. They are behind in a 
few areas, but for the most part, I think they have a chance of 
still meeting their launch schedule.

                 budget request for new launch vehicles

    Mr. Frelinghuysen. You have included $333.5 million in your 
budget request for the program which is up from last year's 
appropriations of $251.1 million. What do you hope to achieve 
with the additional money?
    Mr. Goldin. We have a very different contract arrangement 
on this one. We tried to be innovative, and we are trying to 
incentivize the commercial sector in America to cost share with 
the Government in developing new launch vehicles.
    Lockheed has invested $220 million of their own money in 
this vehicle. They are in charge of the program, and we ran a 
competition. We asked them what they thought the profile ought 
to be. This is the profile that they had in their program.
    Typically, when you have a development program, you don't 
level fund it. You start out, you peak fund, and then you come 
down. So this is the funding required for this year to meet 
that launch schedule that Lockheed had specified.
    Mr. Frelinghuysen. So they will be putting into the X-33 
for fiscal year 1999 how much?
    Mr. Goldin. You have it. Go ahead.
    Mr. Peterson. Lockheed Martin is contributing a total of 
$211 million, roughly. I guess that is the latest estimate we 
have. For fiscal 1997, they are putting in $88 million; for 
fiscal 1998, $63 million; and for fiscal 1999, $30 million. So 
their profile also matches ours.
    Total X-33 funding for NASA was $112 million in 1996 and 
then ramped up to $250 million in 1997; and then we go further 
and ramped up in the curve to $334 million in 1998.
    Mr. Frelinghuysen. So, beyond 1999, fiscal year 2000 and 
2004?
    Mr. Peterson. The program cooperative agreement ends in the 
year 2000, and our final increment is $75 million in 2000.
    Mr. Goldin. I would like to point out that one of the tasks 
that we have given of the Lockheed-Martin Company is to relate 
the X-33, which is a purely experimental vehicle, to a program 
we call the RLV, which would be a commercial vehicle, and tell 
us how do you map what you are doing on the X-33 to the RLV 
because we are hoping that what they will be able to do is go 
to the financial community after we retire the risk to an 
acceptable level and finance the production of this vehicle, 
and we would just become a user of that vehicle.
    We reviewed that with the CEOs of Lockheed and Boeing and 
Allied Signal, and we have asked them to get back to us because 
it may be necessary to do some additional work, which we have 
not defined yet, but this is the amount of money we have in the 
contract to cover through the first launch of that vehicle.
    After that first launch, there may be some other risk 
reduction test we want to undertake, and we will have to do 
that.
    We owe the Administration a report of our integrated plan 
for the reusable launch vehicle and the shuttle and our support 
to national security in the launch area. We owe them that 
report in September. We will clearly, after we get with the 
Administration, review that with the Congress as part of the 
fiscal 1999 process, so everyone has visibility of where we are 
going.
    We were concerned that there are a number of programs going 
on in NASA, in the DOD, and we want to make sure we are all 
coordinated, so we minimize the expenditures of taxpayers.
    Mr. Frelinghuysen. I am sort of getting back to where I 
started from. By any definition, the design is revolutionary 
inasmuch as it basically somewhat parallels what I consider as 
a layperson, aircraft design.
    Mr. Goldin. It is revolutionary. I mean, it looks like Luke 
Skywalker's vehicle. It doesn't look like anything you have 
seen before.
    Mr. Frelinghuysen. So, to the average citizen, this is like 
a major step forward.
    Mr. Goldin. Yes, sir. Yes, sir.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. I will have 
some additional questions in a few minutes again.
    Mr. Lewis. Thank you, Mr. Frelinghuysen.
    It is my pleasure, Mr. Administrator, to welcome a new 
member to our committee, Roger Wicker, for 5 minutes.

                          lead center concept

    Mr. Wicker. Thank you, Mr. Chairman. It is a pleasure to be 
on the committee, and although I am new here, I have certainly 
had an opportunity to deal with Mr. Goldin about some projects 
in my own State of Mississippi.
    Let me ask you about the lead center concept. Over the last 
several years, NASA has reorganized its management in order to 
reduce cost. They have reduced infrastructure and designated 
certain installations as lead centers; for example, the Stennis 
Space Center. I understand it has been designated as a lead 
center with regard to two issues, propulsion testing and 
commercial remote sensing.
    Would you, first of all, give me the progress-to-date on 
this lead center approach?
    Mr. Goldin. Yes. I would be pleased to do that, and I would 
also like to say it hasn't been easy.
    I started in 1992, and I toured all the NASA centers, and I 
found we had too many propulsion facilities. I found there were 
seven propulsion facilities in the country, and I asked a 
question, ``Is any one of these facilities the best in the 
world?'' The answer I received was, ``No, because there is not 
enough money for any one of these facilities to operate.'' Some 
were in Government, and some were in industry. It is that trip 
that convinced me we had to do something.
    The problem is people get very attached to the space 
program. They don't want to leave it. They love it, but the 
fact of the matter is, the American taxpayers said they want 
more performance for less money. So we had to make a decision, 
where is the one place we are going to give the lead for 
propulsion testing, and that was NASA-Stennis.
    The last 2 years have been very difficult because of the 
tremendous love the other people have for propulsion testing, 
but I want to tell you, we are now there. We are upgrading the 
facilities at the NASA-Stennis. We have released the first $45 
million to give us the best test facilities in the world for 
propulsion testing, and that task ought to be finished, I 
think, within the next 2 years.
    When we get done, there will be no question that this is 
the best place for doing propulsion testing at the lowest 
possible cost. So we are now almost there.
    We took it a step further and said this has to go beyond 
NASA. So we initiated a discussion with the Department of 
Defense and asked, ``Where is the right place to do the 
propulsion testing?'' If we just replicate each other's 
facilities and go through independent budget processes, we may 
make it through the Congress, but is it fair to the taxpayers? 
So we are now wrestling that bear to the ground, and we have 
meetings at the highest level with the DOD to see if it would 
be appropriate to do propulsion testing for all the country at 
NASA-Stennis.
    Now, there are various constituent interests, and people 
are going to be very uncomfortable, but what I want to say is I 
have committed to this committee and to my boss, the President, 
that we will give the very best recommendations, and if it 
means we have to move something from one portion of the country 
to the other, we will. I want you to know I am an advocate for 
pressing into this issue on propulsion testing.

                       commercial remote sensing

    Mr. Wicker. All right. How about commercial remote sensing?
    Mr. Goldin. NASA-Stennis has demonstrated a capacity to 
understand commercial remote sensing. We do our scientific 
remote sensing at the NASA-Goddard. They are the lead center.
    We talked to some investment bankers, and they did some 
studies for us and convinced us that there is the possibility 
that this business would blossom from a billion a year to $10 
to $15 billion a year. This is one of the things that NASA is 
supposed to do. While we do basic science, we want to help 
generate new industries.
    We have put them in charge. We have signed all of the 
agreements. We are moving out aggressively. NASA is goingto be 
performing a data buy for $50 million, which is a new way of doing 
business, and they have been given the responsibility of conducting 
that competition.

                         centers of excellence

    Mr. Wicker. All right. Now, this effort to coordinate with 
DOD and the other Government agencies and NASA, is that the 
concept of Centers of Excellence?
    Mr. Goldin. Yes, sir.
    Mr. Wicker. Okay. Well, if you could, explain a little 
further to me how you expect that to work and how far along you 
are on that. You touched on it already.
    Mr. Goldin. Well, let me just say that we intend to test 
our Centers of Excellence. Do they have the best facilities, do 
they have the best people, and we have periodic reviews by 
outside reviewers to tell us that they are making progress. So 
that is one of the methods we use.
    Secondly, we gauge it by how many customers come to them. 
Industry is now coming to NASA-Stennis to do their propulsion 
testing because they could offer up the lowest-cost testing 
because they have the best facilities in certain areas. That is 
another measure that we use.
    So I think we are on the path to do it, and we are doing 
the same thing in the commercial remote sensing area. In fact, 
some of the commercial companies have told us that they really 
prefer working with NASA-Stennis because they had helped open 
some barriers to them in the area of commercial remote sensing.

                       inter-agency coordination

    Mr. Wicker. Just a quick follow-up, Mr. Chairman.
    Do you need any further authorization or does DOD need any 
further authorization for this type of coordination that you 
envision?
    Mr. Goldin. Not at this time.
    We have reinvigorated the AACB, the Astronautics and 
Aeronautics Coordinating Board. The Under Secretary of Defense 
for Acquisition and R&D in the DOD and the NASA Deputy 
Administrator meet with this board, and we have all the 
leadership of both sides working together. The cooperation is 
fabulous. We have been working facilities issues. We have been 
working responsibility issues, and there are things that NASA 
will not do because the DOD is doing it. It is not a one-way 
street. I am very, very pleased with the progress we are 
making.
    Should we need statutory language, we will be prepared to 
come back to the Congress to get it.
    Mr. Wicker. Thank you.
    Mr. Lewis. Thank you, Mr. Wicker. Welcome to the committee.
    Mr. Wicker. Thank you, sir.
    Mr. Lewis. Mr. Goldin, I noted with interest by way of your 
earlier comments, April Fools Day 1992?
    Mr. Goldin. Someone walked up to me and said, Mr. Goldin, I 
want to offer you condolences on becoming the NASA 
Administrator at Dulles Airport on March 31st, just before I 
started, and I said, ``You don't understand, I got the best job 
in the world.''
    Mr. Lewis. On the Internet, you see a couple of brothers 
who are involved in this thing called the Foolish Forts and 
Investment Group, and they are very interesting people. You are 
their kind of fools. We are glad you made that mistake.
    Mr. Goldin. It is a privilege to be a fool.

                       diversifying the workforce

    Mr. Lewis. Mrs. Meek, I wanted to mention to you, beyond 
welcoming you to the committee, that some of your questions 
that addressed, for lack of a better term, affirmative action 
kinds of questions, it is a line of questioning that Mr. Stokes 
and I have pursued with all of our agencies over a considerable 
period of time, and I must say that, among our agencies, this 
one is as good as there is. We just are looking for progress as 
well as help in this area as we go forward with our hearings. 
So I appreciate very much your participation.
    Mrs. Meek. Thank you, Mr. Chairman.
    Mr. Goldin. Mr. Lewis, could I just add one point, if I 
might?
    Mr. Lewis. Certainly.
    Mr. Goldin. We have a real problem at NASA, and I don't 
know what the solution is. Because we don't want to have forced 
layoffs, which I think will destroy the morale of the agency, 
we put in a hiring freeze. We could only hire for specific 
skills.
    Because we have a hiring freeze, we can't bring new people 
in, in very large numbers, and this creates an additional 
problem in diversifying the work force.
    We are worried at NASA-Kennedy because, if people lose the 
morale there, we could have a safety problem. So we are going 
to try and get this thing done in the next 2 years, and about 3 
years from now, I anticipate NASA is going to start hiring 
again in significant numbers.
    So we want to work with you to see how we could do the 
things the best. Mr. Stokes is not shy. When we are not doing 
well, he lets us know, and I think it is in the interest of the 
agency, and I make the same offer to you. If you think we are 
missing the boat, let us know, tell us openly, and we will try 
and respond.

                      interim control module (icm)

    Mr. Lewis. We appreciate that very much, Mr. Goldin.
    Mr. Director, there has been some discussion of using a 
satellite module developed by the Naval Research Lab that you 
referred to earlier as an interim control module to cover a gap 
caused by the delay and completion of the Russian service 
module. I have a series of questions in connection with that.
    For the record, what capability would the NRL option have, 
and how does that capability compare to the capability of the 
completed service module?
    Mr. Goldin. Let me say this. This is in flux, also, and I 
will answer it with the understanding that----
    Mr. Lewis. Right.
    Mr. Goldin [continuing]. We have some possibilities.
    It has the capacity of performing attitude control and 
station keeping, I believe, through the completion of Flight 
7A. Right now, it is not refuelable, although we are looking at 
that as a possibility, but in its present state, it has about 1 
year's worth of fuel aboard. So it would not be reusable. So, 
if we used that and we did not have the service module, about 
every year, we would have to launch a new interim control 
module.
    If it can be refuelable, it gives us more capacity, but it 
still might not have the forces necessary to perform the 
complete functions of the service module and compulsion.
    The service module also has life support systems for crew 
habitability. The ICM does not.
    Mr. Lewis. To extend on that a bit, could the NRL option be 
modified to become a permanent replacement for the Russian 
service module?
    Mr. Goldin. Well, one of the things we are looking at is 
can we get refuelability.
    Mr. Lewis. Correct.
    Mr. Goldin. We also have to understand the limitations.
    We think if we had to build a permanent replacement, we 
would have to go to the next step, and that is a propulsion 
module, which has got more offset for the thrusters. So you 
get, in effect, more torque to do the roll control maneuver, 
and it has a longer life system, something that could last 10 
years, designed for that.
    We are talking to the people at NASA-Marshall and at the 
Naval Research Lab, and maybe they might coordinate together 
and even buy one small piece of hardware from the Russians.
    Another possibility is, we are talking to our international 
partners about offsets. They will owe us money or goods and 
services for things we do for them, and one of the other 
possibilities is working with one of our international partners 
to have them build a propulsion module in lieu of handing us 
money for the operations phase of the program.
    So, again, we are trying to get the very best deal for the 
taxpayers.
    Mr. Lewis. Well, if you would expand on that for the record 
relative to the technical questions and the schedule 
implications, as well as the cost challenges involved.
    Mr. Goldin. I will be pleased to do that.
    Mr. Lewis. With pursuing the NRL----
    Mr. Goldin. Oh, I am sorry. I want to stand corrected. The 
interim control module, if we could refuel it, could go through 
10A----
    Mr. Lewis. Okay.
    Mr. Goldin [continuing]. Not 7A.
    Mr. Lewis. Would pursuing the NRL option allow first and 
second element launches to stay on schedule? If not, when would 
the first two elements launch?
    Mr. Goldin. If we do not have the service module, one of 
the considerations in making a decision should we launch on 
time or not is if the service module would be available as 
early as October of '98 with a very high degree of confidence. 
That might be one of the considerations in launching it on 
time, but if we do not have the service module, I would say the 
probability is that we would not launch on time.
    Now, as for the interim control module, NRL has told us if 
we keep the design as is, they think they could get it in orbit 
sometime between August and October, and if we would launch the 
interim control module in October, it would be my sense that we 
would probably not launch the FGB until June.
    Again, this is very preliminary, and I don't want to say we 
are doing that, but in the spirit of the question you asked, I 
wanted to give you a sense of what might happen.
    Mr. Lewis. I repeat, as we discussed this in private 
conversations, nonetheless, we need this sense for the public 
on the record. So I appreciate that.
    Mr. Goldin. Absolutely.

                        fgb design modifications

    Mr. Lewis. The Russians have proposed building a second FGB 
using the configuration of the first element, but with 
significant modifications. Construction of the service module 
would continue as a permanent habitat, control, and reuse 
component. What modifications would be required to the FGB 
design to make it an interim solution to the service module 
construction delay that comes along?
    Mr. Goldin. If I could make a list of what we would like--
--
    Mr. Lewis. Yes.
    Mr. Goldin [continuing]. But if we haven't verified that we 
could have it, we want it to be refuelable, which it is not. We 
would like it to have larger thrusters so it could handle roll 
control. As you are flying along, roll is this direction here.
    We would like for it to have software capability, not 
hardwired in, but continually upgradeable from the ground 
because the different mass properties of the Space Station 
change as you add additional pieces of hardware, and at the 
present, the FGB couldn't handle those changes. Those would be 
the first ordered changes that we are looking at right now.
    Mr. Lewis. Does this proposal have any impact on the 
revised schedule for completion of the service module?
    Mr. Goldin. If we were to build the FGB-II, there would be 
no impact to schedule. It is looking more and more like FGB-II 
is not the right thing to do.
    Again, a decision hasn't been made, but our Russian 
partners said to us they don't have the industrial capacity to 
build a service module and the FGB-II in parallel because both 
of them contain almost the same subsystems.
    So they said to us it is their desire that we back off on 
the request to them to build the FGB-II. So I don't think it is 
real.
    Now, if we modify the FGB-I, there is no question that the 
initial launch date for first element launch looks----
    Mr. Lewis. Okay. Following up just one more time, what 
would be the cost of this proposal, and what, if any, changes 
to the first and second element launch would be required? Who 
made that decision?
    Mr. Goldin. If we modify the FGB-I, I don't have the 
number, but a best assessment is tens of millions of dollars. 
The FGB-II is hundreds of millions of dollars.
    Mr. Lewis. Yes.
    Mr. Goldin. Again, we haven't negotiated. We haven't solved 
the technical problems. Our best assessment today is if we 
modify the FGB-I, it would be ready for launch in about June of 
1998. That is a nominal date. So that would mean, if that was 
the case, the first element launch would slip by 7 months.

                    new proposal fgb-i modifications

    Mr. Lewis. Okay. Focussing a bit on FGB-I, modifications in 
the new proposal that has surfaced, there would be 
modifications required that involve the first element, I 
gather. What are the nature of those modifications of that 
first element?
    Mr. Goldin. Of the FGB-I?
    Mr. Lewis. FGB-I.
    Mr. Goldin. They would be very similar to the modifications 
we would have to do to the basic design to the FGB-II, as I 
described earlier.
    Mr. Lewis. Okay, but what schedule changes would there be?
    Mr. Goldin. Here they are.
    Mr. Lewis. Okay, yes. You mentioned attitude controls.
    Mr. Goldin. Do you want to just clarify, Wil?
    Mr. Trafton. Wil Trafton, Associate Administrator for Space 
Flight.
    We would be talking to the Russians about improving 
attitude control, refuelable capability, CMG, the saturation, 
control moment gyro desaturation, the ability to reboost the 
station, and backup command and control; in other words, the 
ability to control the FGB from Houston rather than Moscow.
    Mr. Lewis. If we were involved in that, describe to me what 
would happen to the schedule as a result of those 
modifications.
    Mr. Goldin. It is as I stated. It would be, if we move 
ahead with modifying the FGB-I to do these things, we think 
right now--we haven't verified it--it would be on the order of 
7 months.
    By the way, you asked me a question about cost.
    Mr. Lewis. Yes.
    Mr. Goldin. I would like to just share with you the fact 
that we intend to do what we said we were going to do at NASA, 
and we committed to build this Space Station to $17.4 billion 
and live with a $2.1-billion funding cap. We also feel that 
there are things that are beyond our control. If you will 
recollect, we saved $2 billion by having the Russians come into 
the program and save a year and a half in the process.
    We have had a Russian funding line that measured at about 
$100 million a year through 1997. We would like to explore the 
possibility with the Congress on this issue to extend that 
Russian funding line to cover these contingencies that are well 
beyond our ability to control and would create unbelievable 
difficulties for the NASA engineers and scientists.
    Mr. Lewis. We have discussed that as well, but I appreciate 
having that on the record, too.
    Mr. Goldin. I did want to put that on the record.

                           modification costs

    Mr. Lewis. The first element FGB is being constructed under 
contract with the U.S. prime contractor. Would the U.S. be 
expected to pay for the modifications that we are talking about 
or are the Russians proposing to cover those costs?
    Mr. Goldin. That is a negotiation.
    Mr. Lewis. That kind of leads to my----
    Mr. Goldin. Could I just clarify another point to make it 
clear?
    Mr. Lewis. Sure.
    Mr. Goldin. I want to make it clear. NASA is not asking for 
any additional money in the budget. NASA is not asking to break 
any caps. This is not even a proposal. We clearly have to work 
everything we are doing with the Administration. We have to 
work everything with the Congress. So I just want to emphasize, 
this is just a thought process now that we are exploring.
    Mr. Lewis. Just to comment, as I close my questions in this 
subject area, I wasn't surprised that you made that comment one 
more time, and I expect to hear it several other times during 
the hearing, but I appreciate it.
    Mr. Goldin. Well, we want to do what we say we are going to 
do, and I am willing to sign up the budgets that are lower than 
the year before, and I want everyone to understand how serious 
we will take our commitment and we will do everything humanly 
possible to live within that.

                 administrator goldin's visit to russia

    Mr. Lewis. I am most interested in focussing even more 
directly over time here with your visit to the Russians in 
April. There is little question that we, the committee, need to 
help in drawing this very firm line, relative to both time 
schedule, design, participation, cost. We all want the Russians 
to participate in this partnership, but, indeed, we do expect 
them to be accountable in the process.
    Mr. Goldin. I agree with you. I come from a world where 
accountability is everything. I don't mind being accountable as 
long as I am responsible, and a deal is a deal is a deal.
    I can't begin to tell you my level of frustration. I am not 
angry at the Russians. I am sympathetic, but I know how hard 
our people have worked. We got people working day and night to 
hold a schedule. We have overcome unbelievable problems for 
almost 4 years now. For 3\1/2\ years, we have held schedule, we 
have held budget, we have held cost cap, and that is so 
important to the morale at NASA. We want to prove to this 
Nation that we can do a major complicated program and do what 
we said we are going to do. We are frustrated.
    Mr. Lewis. I understand.
    Mr. Goldin. George Abbey has meetings every Saturday with 
everybody. We get together with all our people. I have gone 
down to the different NASA centers. I have been to them, talked 
to the people. The morale is great. We want to do this, but 
saying that, we have got to get our Russian friends to deal 
with the situation.
    I want to make it clear. I don't believe the Russian Space 
Agency has done anything wrong. They just don't get money. We 
need to work with them and the Russian government to make sure 
they get the money.
    Now, I will do everything possible because--another point I 
want to make is, there is a tremendous pride in Russia, and 
when people have a pride, they perform. If they lose their 
pride, they begin to do things that are not terrific. I think 
we ought to stick with the positive, but I still want to come 
back and say we are reaching a point now where we have to know 
is the money arriving or is it not arriving, and we need the 
assurances from the highest level of the Russian government, 
and we intend in the weeks ahead, not months or years, to get 
that understanding and then make a decision.
    Mr. Lewis. Well, Mr. Director, I don't know if it is 
appropriate for you to have these discussions, but as you do 
approach that one more time, a line in the sand, some of us 
have to be willing to ask questions about submarines versus 
other priorities within Russia as we build this alliance and 
hopefully see progress in the months and the years ahead.
    Mr. Stokes?

                           diversity at nasa

    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Chairman, let me also welcome my good friend, Mr. 
Wicker, to our subcommittee. Mr. Wicker and I now serve on two 
subcommittees together, and it is a pleasure to have you on 
this one.
    Mr. Wicker. It is hard to make it to all the hearings.
    Mr. Stokes. It is. In fact, I haven't gotten back over 
there again today. Hopefully, I will get over there in a few 
moments.
    Mr. Administrator, let me go back for a moment to our 
discussion of this morning, and let me pick up on a comment 
made by my chairman, Mr. Lewis, and for your benefit, also, 
Mrs. Meek.
    There is no question, but that Mr. Goldin has demonstrated 
a commitment towards diversity which I have never seen in any 
of his predecessors. I think that he would be the first to 
admit that in spite of the enormous changes that he has brought 
to the agency in that respect, they still have a long way to 
go.
    He has certainly changed the staffing that sits here in 
this room to make it look much more like America. He has found 
some highly qualified minorities around the country and put 
them in some very key positions, and that is one of the 
problems I am having this year. That is why I want us to be 
very candid, Mr. Goldin, because knowing of your commitment and 
knowing of your rhetoric in this respect, I am having trouble 
matching it to the budget that you have before us.
    For instance, this morning when we talked, you are still 
looking at how you can find another $8 to $10 million to 
confront the challenge that we discussed about minorities and 
women.
    In this budget, I see a $26-million increase requested for 
the high-performance computing and communication effort, which 
includes $10 million for the next generation of the Internet.
    I see a $37.5-million increase, 21.6 percent for the 
advanced subsonic technology, another $9-million increase 
requested for general aviation propulsion systems, just to name 
a few.
    Then, of course, as we talked about the proposal to invest 
up to a half-a-billion dollars over the next 5 years and the 
programming request, we are talking about finding that kind of 
money for an unbudgeted effort, while we can't find the $10 
million to protect a significant part of the work force. So I 
am just concerned about how aggressively we are in terms of 
this budget pursuing these areas.

                      minority university research

    Let me ask you this. Your budget documents indicate that 
one of the major reasons why the agency requested less funding 
this year for minority university research relates to high 
uncosted balances. NASA indicates this is especially the case 
for grants administered by headquarters.
    What has NASA done to remedy this situation, and tell us 
why they didn't do it sooner?
    Mr. Goldin. First, let me say that the actual NASA budget 
from last year to this year is coming down $200 million, and we 
are on a glide path to come down another $300 million after 
that. So, on average, we have to tighten across the board. So 
there are areas you pointed out that are going up, but there 
are areas that are going down.
    Now, with regards to the issue that I brought up this 
morning, this is an issue that came up after the budget was 
submitted. I mean, this is something that has happened in real 
time now. We just made this decision Monday of this week. We 
had been working on it for about a month.
    So we are going to solve that problem. It is just that it 
happened after this point in time. I want you to understand 
that.
    Now, with regards to the uncosted carryover, we have a 
problem at NASA not just with the minority universities, but 
with almost all our grants to universities. We have two parts 
of the problem. We, NASA, have not done a stellar job in 
processing the grants, and in fact, we just transitioned that 
from NASA headquarters to NASA-Goddard. We had to do it 
manually. Now we are going to make it electronic to go faster.
    The second part of the problem is the universities are 
really not set up to bill us in a timely fashion, and as a 
result, we build up this big backlog. This problem is even more 
prevalent at the major research universities. They work on a 
yearly basis, and if they have to start the year without 
knowing that the money is there, they can't sign on a college 
professor. So they like the concept of having carryover, so in 
case the appropriations process is delayed, they have money to 
pay their people. This is a real serious problem that we have 
to work with them, not beat them up. So we are going to work 
the problem from both sides of the direction.
    One, we, NASA, will do a better job in processing the 
paperwork to get it out faster, and then we have to get the 
universities to bill us in a timely fashion so we could pay the 
bills.
    What we are doing is holding people accountable, not just 
for maintaining the budgets without overrun. This is what also 
I was talking about this morning, but we want accurate, timely 
expenditure of the funds.
    Now, there is a corollary to that which is bad. If you tell 
people, go spend the funds because they are going to measure 
you, they may spend the funds in a dumb manner. You have to be 
very careful in how you exercise this. So we are trying to put 
in controls.
    Let me give you an example. I went out to NASA-Johnson 
about 2 years ago, and I asked them how they were spending 
their funds for computers. In mid-August, they found they had 
some extra money. So they went out and bought 500 computers 
because they had to spend every nickel they had. This is not 
what we want.
    So it is a double-edged sword, and that is why I have 
hesitated to jump on our people and say do it or anyone is bad. 
So we, NASA, have this problem, and NASA at the universities, 
minority universities and people universities, and this is the 
next step in the reform process of trying to understand it.
    Mr. Stokes. But in light of your own admission that NASA is 
partly at fault here, aren't you still punishing the program?
    Mr. Goldin. Right now they have adequate resources to do 
everything we committed to. I don't believe we are punishing 
the program. I think we are trying to force an awareness on 
people, and at NASA, it is equal opportunity on awareness.
    We have taken money for uncosted away from a broad range of 
people, and to a certain sense, yes, the Administrator is 
sending a message. Yes, I accept the criticism. I am sending a 
message, and we were not overdoing it, but we are trying to get 
people's attention, and one way of getting attention is taking 
some budget away, and next year, I think they will do a better 
job.

                        cardiac imaging in space

    Mr. Stokes. You might be getting people's attention from 
Jerry Lewis.
    Just one further question, if I have any more time, Mr. 
Chairman. What is the status of the $4 million provided last 
year in the science, aeronautics, and technology account for 
cardiac imaging?
    Mr. Goldin. We have a proposal in from the Cleveland Clinic 
in that area to develop cardiac imaging in space because we 
need that for the health of our astronauts. That is under peer 
review in the month of March, and as soon as we get the peer 
review done, because it must be peer-reviewed to make sure it 
is leading edge research, if the peer review community says it 
is acceptable, it will be funded.
    Mr. Stokes. Thank you, Mr. Administrator.
    Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Stokes.
    Mr. Knollenberg.

              government-owned versus private sector owned

    Mr. Knollenberg. Mr. Chairman, thank you.
    Back to the--I don't think we have asked this question yet, 
and if we have covered some ground, you can interrupt me, but 
on the reusable launch vehicle and the X-33, my colleague, Mr. 
Frelinghuysen, has a picture of it here, and it does look as we 
have seen before.
    It is interesting. I think this appeared in the Post 
sometime back, but I think your effort is to move it from being 
a NASA-owned and -operated item to something that perhaps the 
sector will eventually take over and become the force.
    How--or maybe I should say--where are you in terms of 
reaching your goal of moving in that direction, and maybe, when 
can we expect, again, with the best telescope you have, the 
private sector taking over totally of the ownership?
    Mr. Goldin. Let me say this. This is quite risky. This is 
an experiment not just in technology, but in management and 
trust. It is not guaranteed to work, and if you read a recent 
issue of Fortune magazine--no, Forbes--NASA was criticized for 
doing this. Some of the people in the money business said it is 
hopeless, it will never happen, but Daniel Webster said why go 
west of the Mississippi River, it is a barren wasteland full of 
savages and wild beasts. We don't listen to those people.
    Mr. Lewis. You found out he was right.
    Mr. Goldin. So you will find people who are opposed to 
this, but at some point in time, you have to say we can't 
continue going on the way we are going on, where we always 
relied on the Federal Government to do everything.
    I view the role of the Federal Government, as the President 
has asked me to do, as retiring risk on things you can't go to 
the investment community to get money on, and after the risk is 
reduced, to get the Government out of the way and let the 
commercial sector take over and give the commercial sector an 
opportunity to make lots of money or to fail.
    Now, part of the problem is, when the commercial sector 
does business with everyone other than Uncle Sam, they have 
that opportunity to fail. If this experiment is going to 
succeed, we have to give our commercial contractors the 
opportunity to fail, and this is another part of the problem. 
It may cause such anxiety in those who do business solely with 
the U.S. Government cause for concern if we are not supportive.
    Mr. Knollenberg. Are you getting any encouragement from the 
private sector, the commercial side?
    Mr. Goldin. I want to tell you, I think that the Lockheed-
Martin company is incredibly courageous. Their CEO and 
chairman, Norm Augustine, is personally involved. He comes to 
our meetings. The chairman of the Boeing company, Phil Condin, 
who is a subcontractor to Lockheed-Martin, is involved. He 
comes to meetings. Larry Bosity, the CEO of Allied Signal, he 
comes to the review meetings.
    They are not only working on building the vehicle at the 
skunkworks, but they are also looking at working with the 
investment community.
    Now, it may fail, but we are going to go down swinging, and 
my sense is I think we have a good chance of doing 
itdifferently, and it may be that we may need some statutory language 
from the Congress when we understand this better to facilitate the 
process. It may be in the area of making multi-year commitments if we 
could just become a commercial customer. Right now we can't do that. So 
those are the things that will have to happen.
    Mr. Knollenberg. The liability exposure would be one that 
will be immense, I would think, in terms of the private sector, 
assuming that.
    Mr. Goldin. Right. There is just a simple issue. Right now 
we--I don't know what the right term is. We cover the cost in 
case a launch vehicle veers off course and creates some 
collateral damage, third-party liability. We are trying to 
wrestle this with the contractor. They are going to be 
completely responsible for a vehicle that is going to fly over 
populated areas. This is a nontrivial issue. So it is more than 
a technical issue, but I think that it is stimulating.
    I have been talking to some of the leaders in the 
investment community, not involved in space. They are very 
excited about this, and we are really trying to do something 
different. Like I said, we feel stronger when people tell us we 
are going to fail.
    Mr. Knollenberg. Let me ask you about another. This is kind 
of like, I would say, in the direction of maybe the absurd and 
the bizarre, but it is a question that is beginning to get some 
currency or a subject because of the asteroid influence.
    Mr. Goldin. Yes, sir.

                      near-earth asteroid tracking

    Mr. Knollenberg. I note--and I don't know how much money 
you are spending when I ask that question, but I note in the 
budget, there is money at least for NEAR. Is there money also 
for NEAT? I presume that is the outgrowth of----
    Mr. Goldin. Near-Earth Asteroid Tracking, NEAT.
    Mr. Knollenberg. Right.
    Mr. Goldin. And the answer is yes. We have funding in three 
different programs. It is a total of $1.2 million a year, for 
all three programs and supporting activities.
    Mr. Knollenberg. Over how many years?
    Mr. Goldin. Twenty years.
    Mr. Knollenberg. Twenty years?
    Mr. Goldin. And on the geological time scale, it is not 
big, but on the anxiety time scale for many Americans, it is 
too long.
    I have talked to Wes Huntress, who is here, Dr. Huntress, 
about this. We are now using Air Force facilities on Haleakala, 
Hawaii, but we only get so much viewing time per year. So we 
are now talking to the Air Force. We are having discussions 
with them of using and getting more time at this facility and 
bringing other facilities on line.
    We are bringing two new telescopes on line in Arizona, one 
in Tucson and one at the Lowell Observatory in Flagstaff. Now, 
these are not the big telescopes because, if you want a wide 
field, you use the smaller telescopes; but NASA is developing 
electronics to go with those telescopes that could make it go 
faster.
    We have a second problem that we have lost our ability to 
search for Near-Earth objects from the southern hemisphere. All 
the telescopes we are using are in the northern hemisphere. So 
we are looking at working with the National Science Foundation 
in the southern hemisphere. We are trying to bring other 
countries into it.
    I share your sense of concern. Now, when we first started, 
it looked like it was going to cost $100 million. We can't just 
grow money problems. We now have it down to $25 million, and 
now I have to trade. Do we want to try and do it faster and 
spend a little bit more money? We owe you an answer to this 
question, but I heard you were going to ask this question. It 
got my attention.
    Wes Huntress was in my office this morning, and we are 
going to see how to accelerate it.
    Mr. Knollenberg. Very good. I know it is one that got a lot 
of attention, and obviously, it is one that has some capability 
to it, and I think already you have identified what is close to 
10 percent of the larger objects?
    Mr. Goldin. Yes.
    Mr. Knollenberg. So it is the little guys that are still 
out there.
    Mr. Goldin. We want to get 90 percent of all objects, 1 
kilometer or larger in diameter.

                           commercialization

    Mr. Lewis. Thank you, Mr. Knollenberg.
    Mrs. Meek, if you would bear with me for a moment. Before 
we get too far away from commercialization, the September 1996 
National Space Policy states that the U.S. Government shall 
purchase commercially available space goods and services to the 
fullest extent possible and shall not conduct activities which 
may preclude or deter commercial and space activities.
    The policy also encourages the use of innovative 
procedures, procurement methods. First, have any U.S. 
commercial firms been asked by NASA to build portions of the 
Space Station in return for that firm being given a portion of 
the utilization of the----
    Mr. Goldin. To the best of my knowledge, we don't know of 
one firm that is willing to put up the money to build the 
equipment in return for utilization.
    Mr. Lewis. Have we asked them?
    Mr. Goldin. We have talked to many, many firms.
    Wil?
    Mr. Trafton. Specifically, I have asked two companies in 
U.S. industry, and they were not interested.
    Mr. Goldin. Let me be a little controversial at this 
point----
    Mr. Lewis. Please do.
    Mr. Goldin [continuing]. And say that we have a real 
problem, and it gets back to the question that Mr. Knollenberg 
asked about what is commercialization of space.
    There are a whole bunch of people who view 
commercialization of space as they will go to the bank, get a 
loan, build the equipment, and then want NASA to guarantee 100-
percent return on their money. That is not commercialization. 
That is subsidization.
    When people come and talk to me about commercialization, I 
ask them--to me, commercialization is ready to take risk. We, 
NASA, are prepared to move with anyone that wants to do 
commercial activities, that is, buy equipment, get the 
utilization space, and not come back and say, NASA, we want you 
to buy all this commercialization space back or 70 percent of 
it, because even at that, why should we pay for venture capital 
money when we could go get Government financing?
    I am very concerned about this issue, and I would like to 
believe we are going to have a commercial industry, but those 
who always are going to come back to Uncle Sam are going to 
have a very tough customer at NASA.
    Mr. Lewis. I am very appreciative of that, and frankly, the 
more we can push the industry to the forefront of helping us 
with this very difficult task, the better.
    You have done a very fine job of communicating with our 
partners, our international partners in Europe, et cetera. I am 
interested as we broaden the numbers at the table, talk about 
commercialization, to know what I don't know about what is 
happening with our Latin neighbors.

                       international cooperation

    Is it NASA's decision to enter into international 
agreements with Brazil for a portion of the Space Station, 
consistent with the commercialization policies?
    Mr. Goldin. I think it is more consistent to keeping the 
cost under the cap. We will do whatever it takes to meet our 
commitment within the law, and Brazil approached us. I went 
down to Brazil to sign an agreement with them, a cooperative 
agreement in space. They are so excited about working on the 
Space Station. They said if we would consider it, they would 
put up cash just in return for some utilization fund.
    Mr. Lewis. Can you describe their participation?
    Mr. Goldin. I have to tell you, it is an unpressurized 
logistics rack, is the main part of it, but it is mainly the 
unpressurized logistics rack as their main activity, and then 
perhaps a window or a cupola for the Space Station.
    We are in the process of talking to them. There is no deal 
yet.
    Mr. Lewis. When I heard about this, I was thinking about 
our international partners. I know about your effort to get 
industry involved, and I am wondering about the rest of our 
Latin neighbors. I would like to know what I don't know about 
that, their interest and otherwise.
    Mr. Goldin. By the way, we are working directly with the 
U.S. They would not become a partner on the broader sense of 
the station.
    We are working not as fast as I would like us to work to 
provide opportunity to other countries to participate, and John 
Schumacher, who is head of--I have asked John to reach out a 
little bit more. Countries want to work with America. This is a 
real opportunity, and they want to bring money, which I think 
is also very, very important.
    Mr. Lewis. Well, Europe has demonstrated the values of 
nations working together as well.
    Mr. Goldin. It is terrific.
    Mr. Lewis. To our neighbors to the south, I am scratching 
my head about that, but I don't know----
    Mr. Goldin. We are going to look at it more.
    I would like to come back to the issue of commercial space 
to let you know that we are very, very serious. As 
Administrator, I am getting personally involved in talking to 
the investment community, and we are trying to see if it is 
possible to build a space venture fund.
    One of the problems with people going into the commercial 
business is that the gestation time for turning profits around 
is too short. They need to turn their profits around in 2 or 3 
years so they can break even and then start making money, and 
they have to be willing to take a tremendous amount of risk 
when private capital is involved.
    So we are trying to explore the boundaries around how we 
could build a space venture fund where we could allow for 
profit turnaround in 5 to 10 years, instead of 2 to 3 years, 
and be able to afford more risk.
    I think if we could build such a fund and bring non-
Government management into it, some of these people that manage 
the standard venture capital funds, I think we will do a lot 
for real commercial space. We are now restructuring some of the 
work at the agency to try and make this happen where we will be 
a catalyst and facilitator, but people won't view us as a 
customer.
    Now, I know this is difficult for some because there are a 
lot of people that want to work with the agency, and we will 
transfer technology, but I have looked at 20 years of 
commercialization, and we haven't got there. We have got to do 
it differently, and we have got to change their mind-set about 
people coming up to Capitol Hill with lizard briefcases and 
patent leather shoes selling the work to the NASA people. They 
ought to be selling it to the private sector, and by the way, 
the NASA Administrator's office.
    Mr. Lewis. I personally very much appreciate the entire 
thrust of this discussion.
    Mrs. Meek?

                             privatization

    Mrs. Meek. My question is very generic. It kind of follows 
up on one of your interests. What I am hearing around the 
table, and I am new to this committee, it appears as if because 
of the circumstances you find yourselves in, plus your 
philosophy, you might go toward privatizing some of the many 
things you are doing. Is that correct?
    Mr. Goldin. As fast as we can, and I would prefer doing 
more commercializing than privatizing, but right now we are 
pretty well limited to privatizing.

                       international negotiations

    Mrs. Meek. Now, I understand that not only have you--well, 
you have consummated your relationship with Russia, but you 
have been talking to other countries or they have been talking 
to you, Japan, some other countries in Europe. What is the 
extent of your negotiations with them, and are they into the 
program, or will they be into it?
    Mr. Goldin. Let me tell you, Japan, Canada, and Europe are 
into the program to the tune of almost $10 billion. They are 
wonderful partners.
    While we are looking for new partners, I would like to take 
this opportunity to say that the Europeans, Canadians, and 
Japanese are wonderful partners. They are committing a lot of 
money, and they are working with us very cooperatively.
    Mrs. Meek. This is just a humorous question. I was around 
during World War II.
    Mr. Lewis. Oh, now wait a minute.
    Mrs. Meek. I was around. I was around. Now, you are sharing 
some of our great ballistic kinds of technology and whatever 
with all of these countries, and I am just wondering if you 
ever thought about to what extent that could be used.
    Mr. Goldin. Let me say this.
    Mrs. Meek. That is a grandmother question.
    Mr. Goldin. We protect all national security technologies. 
We work closely with the Department of Defense, Department of 
State.
    When we work with countries, generally, it is a cooperative 
effort. In the case of the Japanese, they are developing their 
own technology in rocketry. They are putting their money in 
with their contractors to supply equipment to the Space 
Station, same with the Europeans.
    We do not transfer knowingly any critical technology 
necessary to the defense of this Nation or any technologies 
critical to our economy. We have procedures in place to prevent 
that from happening.
    Mrs. Meek. Thank you.
    Mr. Lewis. Thank you, Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Chairman.

                          benefits from russia

    Mr. Lewis. Mr. Director, before calling on my next 
colleague, you concluded a piece of your remarks regarding 
Russia and some of the difficulties we are facing with the 
reality that we have gained an awful lot by the dealings that 
we have had with them up until now, the great benefits 
technologically and otherwise. I think it is very important for 
all of us to recognize that there is that very positive element 
that we cannot afford to overlook.
    Mr. Goldin. I want to tell you, the Russians know a lot 
about people in space because they have had them in space for 
10 years straight.
    Mr. Lewis. Yes.
    Mr. Frelinghuysen?

                           x-33/laser program

    Mr. Frelinghuysen. Yes. Thank you, Mr. Chairman.
    I just want to clarify a response you gave earlier relative 
to the X-33. Kathy Sawyer's article in the Science Aeronautics 
section of the Washington Post earlier in the month, and I 
quote, says, ``The project''--and this is the last paragraph--
``is scrambling''--referring to the X-33--``to meet a tight 
schedule. The X-33 is it be completed by late 1998.'' I don't 
know whether you have seen the article, but I assume that the 
article is put together relative----
    Mr. Goldin. I don't know if ``completed'' is accurate, but 
it flies March of 1999.
    Mr. Frelinghuysen. If flies.
    Mr. Goldin. March of 1999.
    Mr. Frelinghuysen. Well, actually, it says in the article 
here relative to that, and I quote, ``After repeated delays 
caused by equipment and other problems, the engineers hope 
finally to fly----
    Mr. Goldin. Oh, I am sorry.
    Mr. Frelinghuysen [continuing]. For the first time next 
summer.'' I assume that is the summer of----
    Mr. Goldin. Oh, okay. That is the LASER experiment. The X-
33 is scheduled to fly in March of '99. We have an experiment 
called LASER which we are going to fly on the SR-71, which is a 
plane that travels at Mach 3.1. On the back of this plane, we 
are going to put this package which is a small-scale version of 
the aerospike engine to get some data before we have to put it 
on the actual launch vehicle.
    I got to say that we, NASA, and the contractors do not 
bathe ourselves in glory, and we did a sloppy job, and it is 
late because of poor performance on the part of NASA and the 
contractors.
    Mr. Frelinghuysen. So there is a relation, but the time 
table for X-33 is 1999?
    Mr. Goldin. We just want to do that as soon as possible so, 
if we find the problem, we could fix it before we fly the X-33.

                        POTOMAC INSTITUTE STUDY

    Mr. Frelinghuysen. Director, there have been some newspaper 
articles relative to the study you funded with the Potomac 
Institute. The Potomac Institute, I guess, is in Arlington, and 
they have recently released a report on your commercialization 
efforts.
    The quotation that struck me from the newspaper from Mr. 
James Richardson was--and he is vice president of Research for 
the Institute, quote, ``NASA should normalize human orbital 
space flight by spinning off mature space operations to 
commercial operators which is encouraging non-aerospace 
customers of these assets. We see this strategy as a way out of 
NASA's long-term budget crunch,'' unquote. Could you comment on 
the study?
    I know you funded it. You spent what, $370,000?
    Mr. Goldin. We gave away $400,000. We gave away in a grant 
without any control. This is okay. Here is my problem. I love 
what he said. As soon as we get someone with enough courage to 
step up and commercialize space and not abuse the Federal 
Government, we are ready to do it, and as to the gentlemen who 
did the study, could show me someone that is ready to put their 
own capital in and not require Government money, we are ready 
to rock and roll.
    Mr. Frelinghuysen. So this gets back to what you said 
earlier, quite passionately, is that if people are willing to 
put their money up and absorb the risk of putting their capital 
forward.
    Mr. Goldin. What they call commercialization is someone 
will go to the bank and get money, take over the operation, and 
then have us give them a lot of money to pay back all their 
interest. We are not interested in doing that.
    Now, we are faulty in one area. Space is too expensive to 
get to, and by the way, I don't want to criticize the people 
that want to be real commercial advocates of space. We, NASA, 
have not done a good job. We, the American Government, have not 
done a good job in getting the cost of the launch down. That 
$10,000 a pound is pretty hard to commercialize space with a 
shuttle that flies only seven times a year with predetermined 
payloads. It is hard to commercialize space.
    It is crucial to open a space frontier to get a low-cost 
access to space with high reliability. It is going to be a 
theoretical issue until we make that happen. So, guilty as 
charged, we have not lowered the threshold for getting into 
space and made the reliability high, and what we do is keep 
dividing up the assets of the shuttle and doing different 
things, but until we get the costs down, we are not going to 
make it happen.
    The second part of the problem is people who want to fly 
technology transfer commercial experiments on the shuttle--and 
there, we have a lot of them. Pharmaceutical companies want to 
do drug research on the shuttle in the station. There are 
material companies that want to do work. We, NASA, spend too 
much time getting those payloads ready, and I think we have to 
improve it.
    And then we have a third problem. As we are building the 
Space Station, because we only have the space shuttle that we 
could afford to fly seven, eight times a year, we don't have 
adequate access to space for some of these folks, and in that 
sense, I accept the criticism of NASA.
    Mr. Frelinghuysen. Your predecessor quoted--a quotation was 
attributed to your predecessor relative to this study. I 
presume you read that quotation.
    Mr. Goldin. No.
    Mr. Frelinghuysen. Let me just read it to you and get your 
reaction to it. Mr. Beggs, former NASA administrator, is quoted 
in the New York Times--this was on February 8th--as saying, and 
I quote, ``The billions of dollars spent in man's space flights 
since the 1960's, if it had been used to build an organization 
to put payloads into space, it is now time,'' he said, ``to pay 
more attention to privatizing space flight, so that the 
businesses could take over the routine functions of launching 
spacecraft and running commercial enterprises in space.''
    My question is, is there a potential payoff here in terms 
of your budget? Is there some sort of a quantifiable goal if, 
in fact, we can get commercial--greater commercialization?
    Mr. Goldin. Mr. Beggs and I share the same view. I mean, I 
would love it. We have a problem. The problem is, as I stated, 
we have the shuttle, which is a wonderful machine that is too 
expensive, doesn't fly enough, and doesn't have the level of 
safety that I think we would need if we go into routine 
commercial operations.
    So, to me, the issue is dividing up the shuttle among a 
whole bunch of people that want to operate isn't going to do 
it, but let me tell you what we have done, and I am very proud 
of it. We are transitioning the shuttle from Government control 
and Government operation to a private company, the USA Company. 
They are going to be responsible for operating it safely, and 
that is how they will make profits.
    So the step one is, over the next 2 years, to transfer it 
over to there, but let me tell you what it is like being in 
Government.
    Mr. Frelinghuysen. So that is the element, the greater 
element of----
    Mr. Goldin. That is privatization.
    Mr. Frelinghuysen [continuing]. Privatization as opposed to 
commercialization.
    Mr. Goldin. We did it, amid unbelievable criticism and 
concern which I share. People felt that NASA could operate it 
safer than a private company, to which I respond, if we really 
want to open the space frontier, we have got to start trusting 
private companies. We are a capitalist nation. Do you want to 
fly an aircraft, airlines managed by the Federal Government? I 
don't think so. So we have got to start the process.
    Mr. Frelinghuysen. Oh, God. Would you repeat that, please?
    Mr. Goldin. Well, I am not saying it to be funny.
    Mr. Frelinghuysen. I know.
    Mr. Goldin. You go back and read the newspapers for the 
last year or two and see the criticism that we have received at 
NASA by wanting to transition to a private company. Americans 
have learned to trust NASA for safety, but you can't have it 
both ways. You can't open the space frontier if you don't want 
to trust companies, and just because it is a private company 
wanting to make a profit doesn't mean it is unsafe. I think it 
will be safer.
    Yes, we will have problems, though. That is the first step. 
The second step is to encourage the USA Company to invest in 
upgrades because we are going to reward them 30 cents on the 
dollar for every dollar they save on $400 million in profit. 
Now, all of a sudden, capitalism kicks into the next gear.
    Then, I would like to see them start looking for some 
commercial opportunities, and the question was asked what could 
we do there. Right now, I am not sure if it is legislation or 
it is a national policy that the shuttle shouldn't do any 
commercial things.
    Now, the next thing that will happen is that we try and do 
that with the shuttle. The people that build expendable launch 
vehicles are going to try and stop us from making the shuttle 
available.
    So I submit, if the Congress is willing to roll up their 
sleeves and take on some of these issues with the NASA folks 
and the Administration, we are ready to move to the next step. 
These are the things that we are doing in real terms to try and 
make change and not make a lot of glorious statements.
    Mr. Frelinghuysen. Thank you.
    Mr. Lewis. Thank you, Mr. Frelinghuysen.
    I must say, maybe we should plug Mr. Beggs into this. I was 
intrigued by that space venture fund idea.
    Mr. Goldin. And by the way, Mr. Beggs is a real believer, 
and I want you to understand that I really salute what he is 
trying to do, and he is trying to help us.
    Mr. Lewis. Mr. Wicker.

                 International Space Station Annual Cap

    Mr. Wicker. Mr. Goldin, let's go back to the near term and 
particularly to the issue of the $2.1-billion annual cap for 
the International Space Station.
    I want to give you an opportunity to enlarge upon your 
plans for achieving that goal. How close are we in the current 
fiscal year?
    Mr. Goldin. Very. The budget is very, very tight. We are 
trying to look at each of the steps we have to take to keep a 
reserve available. We are not overrun. I don't feel the 
reserves are at the level that is adequate for handling things 
that we don't know about. In 1997 and 1998, our reserves are 
the tightest in the whole program.
    Mr. Wicker. Are you counting on reserves in later years to 
meet this goal?
    Mr. Goldin. We will always need reserves in the later years 
because you don't know what is going to happen. So we will need 
the reserves.
    Mr. Wicker. Well, if you will, you mentioned, I believe, in 
this context the Russian funding and also the Brazil 
initiatives as means of achieving the cap, staying under the 
cap. If you will, just elaborate on what your----
    Mr. Goldin. Sure.
    Mr. Wicker [continuing]. Complete contingency plan is for--
--
    Mr. Goldin. Sure.
    Mr. Wicker [continuing]. Staying within this number.
    Mr. Goldin. Well, let me give you a couple of things we are 
doing. Right now, we are negotiating with ESA, the European 
Space Agency, to give in-kind consideration for the Europeans 
building the second node and integrating it and for building us 
a third additional node to give us more scientific capacity on 
board the station.
    We have made estimates that this could save us between $60 
and $80 million, a good portion of it coming in the present 
fiscal year. So that is a very specific step that we could 
take.
    In talking to the Brazilians, there is some range of monies 
anywhere between $30 to $50 million. This is real money that we 
don't have to spend. That helps build our reserve, also.
    We have a series of maybe 10 or 15 things that we are doing 
to rebuild the reserve. Each year, we face this problem, and 
each year, we have been able to overcome it, and the key issue 
here is we don't want to come back to the President or the 
Congress and ask for more money. So we will do everything 
possible. That is the approach we are talking.
    Mr. Wicker. I appreciate that assurance.
    Mr. Goldin. It is not a guarantee, but I want to tell you, 
there will be a lot of blood on the floor before we ever come 
back and ever consider that, and right now, I believe we are 
going to make it.
    Mr. Wicker. I would just observe, Mr. Chairman, that 
Everett Dirksen would be pleased that the director of NASA said 
that $50 billion here and $60 billion there--or $50 million.
    Mr. Goldin. Million.
    Mr. Wicker. I am getting my B's and M's mixed up. It adds 
up to real money. I am glad you subscribe to that philosophy.
    That is all.
    Mr. Lewis. Thank you very much, Mr. Wicker.
    I just wanted to mention, my staff was good enough to point 
out, or remind me, that relative to the commercialization 
discussion, the committee in its own language last year 
expressed those interests and concerns. The committee is 
concerned that NASA is seeking, on the one hand, to encourage 
commercialization of shuttle operations, while on the other 
hand, policies are in place which may have the opposite effect.
    Following the Challenger accident in 1986, a policy 
directive was issued which prohibits the use of the space 
shuttle for commercial payloads. That directive is still a 
major component of the space policy of the United States 
Government. NASA has initiated a number of measures to increase 
the commercial aspects of space transportation, but to date, 
there does not appear to have been a comprehensive review of 
the original rationale of the prohibition of commercial 
payloads to determine if it should be retained and so forth.
    You are familiar with that. We continue to raise those 
questions. I am not sure how long each of the members may be 
able to stay. We have had very good attendance in what is going 
to be and continue to be a long session, but certainly, while 
Mr. Wicker is here, I want to ask a question that is somewhere 
within the mix of my own delegation.

            Evolved Expendable Launch Vehicle (EELV) Program

    Some members of the California delegation have expressed 
concern that NASA-Stennis Space Center personnel are pressuring 
Rocketdyne to shift work on the evolved expendable launch 
vehicle, EELV engine, from Edwards Rocket Site to Stennis. Does 
Stennis currently have a test stand capable of being used for 
the EELV program? I have a couple of other questions in 
connection with that.
    Mr. Goldin. Okay, good. The answer is yes. Right now, the 
plan is to test the RS-68 engine block one at Stennis, and the 
block zero engine is being tested at Phillips. If for some 
reason that engine were to be tested by NASA, it would be 
tested at a test stand, whose number I don't remember, but it 
is a four-digit number starting with 4, at NASA-Marshall. 4670.
    Mr. Lewis. Will the current and planned personnel levels at 
Stennis be able to support the EELV program?
    Mr. Goldin. We believe so, and by the way, I want to get 
something clear here. We respect what the Department of Defense 
is doing. I don't know the details of what is going on, but to 
the first order, if employees are being aggressive to try and 
get the very best deal for the Government, this is good. If 
they are being aggressive to build an empire, this is bad.
    Mr. Lewis. Correct. Correct, both of those.
    Should Stennis be looking for non-NASA work or should it 
concentrate on current NASA programs?
    Mr. Goldin. Well, this gets back to the comment I made 
about Center of Excellence. If they are going to have the very 
best propulsion test facilities in the country, if they are 
going to have the very best people for testing propulsion, and 
they have a capacity for doing more for less, they ought to 
talk to their other peer agencies, and they ought to talk to 
the companies in this country on a professional basis to see 
how we can the taxpayer the biggest benefit.

                shuttle safety and performance upgrades

    Mr. Lewis. Okay, good. Shuttle safety and performance 
upgrades. The budget requests for safety and performance 
upgrades to space shuttle is $483 million in fiscal year 1998, 
a reduction of $150 million from the 1997 level. The reduced 
funding level is spread throughout all the components of the 
program, given the criticality of these upgrades and the 
development problems being encountered in some of the efforts, 
why is the budget request being reduced?
    Mr. Goldin. Well, first, let me say that we are completing 
a number of very major efforts. The engine upgrades, although 
we still have problems with the fuel pump, the oxidizer pump is 
done. It is a Super Lightweight Tank. These are very, very 
large activities. The large throat main combustion chamber and 
the new powerhead, these are all beginning to get to 
completion, which is where we want it to be. So that is one of 
the reasons it is coming down.
    Now, we are not stopping there. I have personally asked the 
NASA people to define the next generation of supportability 
upgrades. This is a very, very complex task, and we have a 
series of upgrades we are exploring, and I would like to submit 
the details of that for the record.
    Mr. Lewis. Okay.
    Mr. Goldin. But this is a new NASA. We are not allowing 
them to go forward on that until they thoroughly understand the 
requirements, until they thoroughly understand the costs, until 
they validated the requirements and validated the costs. So 
there is a time delay in performing this function.
    Now, I also mentioned when Congresswoman Meek was here that 
we did not want this to be just a designer's activity at NASA-
Johnson, but we wanted the operators from NASA-Kennedy 
involved, and we just put a new function together under Joanne 
Morgan. It now has, I think, 75 people. So the people that 
actually fly the shuttle are participating in this as a 
definition and a review authority. So it will take us some 
months, and we expect by the end of the year, we will have this 
very well defined, and we expect to incorporate a good portion 
of it in the fiscal 1999 budget.
    If we believe we are ready to start some activities, we are 
going to come forward with an operating plan change. We do have 
monies in our program, in our reserves, to handle the startup 
of any of these things when they are ready, but I want to come 
back and say we don't want to have cost growth of 77 percent 
anymore. So we are going to measure twice and cut once.

             multifunction electronic display system (meds)

    Mr. Lewis. The Multifunction Electronic Display System will 
replace the current cockpit displays with an integrated liquid 
crystal display system. Qualification testing has experienced a 
new delay and is now scheduled for completion in the second 
quarter of fiscal year 1997. What is causing the delay in 
completion of the qualification testing?
    Mr. Goldin. Well, NASA was required to develop a U.S. 
capability in this type of display, and we had a 99-percent 
rejection rate from the U.S. contractor. So we went overseas to 
Japan, and we are buying this from a Japanese company.
    It was very disappointing to us because we wanted the 
American company to succeed, but we got to fly the shuttle. So, 
then, after we failed with the American company, we went over 
to a Japanese company, and they are supplying the equipment.
    We had a little bit of a problem to begin with, but now we 
believe we will be able to deliver this on time.
    Mr. Lewis. What level of confidence do you have that the 
testing will be completed as currently scheduled, and what is 
the effect of the scheduled slip on initial operating 
capability?
    Mr. Goldin. We think we will have it 2 months prior, based 
upon the testing, and it is going into OV-104.
    Mr. Lewis. Okay. The Aerospace Safety Advisory Panel 
expressed concern that the MEDS required significant changes to 
both the primary flight software and backup flight software. 
Have the panel's concerns been addressed in your testing 
program?
    Mr. Goldin. Let me tell you, I think the Aerospace Advisory 
Panel is one of the most valuable tools that I have as 
administrator in managing this agency. These are a bunch of 
very smart people who leave their egos at the door. They have 
come in and they have given us some very valuable advice.
    They are absolutely right about the criticality of that 
software, and our plans have a thorough testing of the software 
as individual packages and the integration of the software with 
the hardware before fly.
    Mr. Lewis. Okay.
    Mr. Goldin. They are right.
    Mr. Lewis. Thank you.
    Mr. Goldin. By the way, there is one other recommendation 
that they made, and that was, they said the first step of MEDS 
is to just replicate the mechanical sensors, the mechanical 
indicators you had in the shuttle cockpit. They said why don't 
you make the shuttle much safer by putting in software upgrades 
now that you have MEDS.
    So, as part of this new shuttle upgrade program to make it 
safer, we are looking at something on the order of a $30-
million investment to take us from just replicating gauges and 
dials to making the situational awareness for the pilots a much 
higher level. So, again, they were right, and we will be coming 
back in our operating plan to talk about that.

                          propulsion upgrades

    Mr. Lewis. Okay, thank you.
    Two propulsion upgrades to the shuttle which are critical 
for the Space Station program are the Super Lightweight Tank 
and the Block II Space Shuttle Main Engine. Both of these 
programs are of concern to the Aerospace Safety Advisory Panel 
as well. Would you explain what has caused the slip in the 
first flight of Block II engine and what will be the effect of 
the schedule on the Space Station?
    Mr. Goldin. Lack of performance by our contractor,Pratt-
Whitney. Everything is less than perfect, and to say the least, we are 
not happy campers.
    We had problems with the oxidizer pump, and now it is 
flying successfully on the shuttle. We won't fly until it is 
safe, and if we have to wait, we will wait here, but we believe 
that the upgrade to the shuttle is so important. We want to 
bring the large throat main combustion chamber, the new 
powerhead into service because it gives us a much greater 
design margin on launch; that what we will probably do is have 
the Block II qualification without the fuel pump. Then we will 
use the existing Rocketdyne fuel pumps, and 6 months later, 
when we get the new fuel pump, we will replace the Rocketdyne 
fuel pumps and we will have like a Block II-A qualification. So 
it will be a sequential installation, but we feel that the 
safety is so important, we don't want to wait.
    I want to be on the record that NASA is very unhappy with 
Pratt-Whitney. They are snatching defeat from the jaws of 
victory.
    Mr. Lewis. Thank you.
    Does NASA share the panel's concern about welding quality 
control operations and the production of Super Lightweight 
Tank, and what actions have been taken to address these 
concerns?
    Mr. Goldin. I am not personally fluent in this issue. There 
is some disagreement between some of the NASA people and the 
Aerospace Safety Advisory Board because it is a very 
complicated technical subject, but saying that, I have such 
respect for the board that we have asked our safety 
organization to work with the developers and bring in an 
independent panel of national experts to get an understanding 
of what is going on here, and if there is an issue, to bring it 
forward.
    Mr. Lewis. And if you would keep us apprised of that?
    Mr. Goldin. Absolutely.

                           system integration

    Mr. Lewis. One more question. Funding for system 
integration is $34 million lower in fiscal year 1998 than was 
the case in fiscal year 1997. What is the rationale for this 
funding decrease when the number of planned shuttle flights 
remain the same in both years?
    Mr. Peterson. If I may answer that, sir.
    Mr. Lewis. Mr. Peterson.
    Mr. Peterson. There are two things going on currently. One 
is that in the fiscal 1997 number, we have money that is 
targeted to pay for transition cost to the space flight 
operations contract, the USA contractor, and the funding for 
that transition is heavier in 1997 than it is in 1998, and that 
accounts for about $10 million worth of difference.
    The residual is fundamentally the improved performance of 
the program over the past few years as a result of the uncosted 
carryovers being high enough so that the fiscal 1998 funding 
requirement could be reduced. So we carry over enough funding 
from 1997 into 1998 to keep the level of activity smooth, but 
the budget authority that we require is reduced.
    Mr. Lewis. Okay. Thank you.
    Mr. Frelinghuysen.

                      research and flight centers

    Mr. Frelinghuysen. Mr. Goldin, just satisfy my curiosity 
here. You used the term earlier here in your comments about the 
autonomy that some of these space centers have and the research 
centers. What do you mean by that phrase? They obviously have 
to work within your overall budget parameters?
    Mr. Goldin. I think I used ``authority and 
responsibility.''
    Mr. Frelinghuysen. Well, whatever. I thought you used the 
term ``autonomy.'' I just wondered.
    Mr. Goldin. If I did, maybe--I think I was talking about 
accountability and responsibility. I don't recollect when I 
used ``autonomy.''
    Mr. Frelinghuysen. To what degree do the centers--then let 
me ask the question. To what degree do the centers, both 
research and flight centers, have autonomy?
    Mr. Goldin. Once we define the requirements and we sign a 
contract, for example, once Wil Trafton, who is the Associate 
Administrator for the Office of Space Flight, signs a contract 
with the lead center for the shuttle and the Space Station 
manager, the contract is signed.
    Within the limitations of the requirements, the budget, the 
schedule, and the technical, NASA-Johnson has complete 
authority, so long as they are doing it safely.
    If they want to make a change to the requirements, they 
have to come back to Wil Trafton to make that change, but what 
we are not doing is micro managing the centers. So autonomy 
within the bounds that we have defined, and that is the only 
autonomy that they have.
    Mr. Frelinghuysen. You have five flight centers and four 
research centers, plus headquarters.
    Mr. Goldin. Yes.
    Mr. Frelinghuysen. Mr. Hobson usually asks most of the 
agencies that come in here what are we talking about in terms 
of--we know what the payroll is in each of these centers 
because you have provided that, but what do we have relative to 
square footage? Is it owned by NASA? Is it Government property 
generally, or is it rented?
    Mr. Goldin. Well, let me tell you, one of the lessons that 
I learned in private industry is, during the very rapid 
increase of the aerospace community in the 1970's and 1980's, 
there was a tendency to do a lot of leasing of buildings. That 
really hit the overhead hard.
    So one of the things we are trying to do, as the leases 
come up, we are trying to get out of the leases because that 
cuts our operational space and comes within the boundaries of 
our facilities.
    We are also in certain cases shutting buildings down so we 
don't have to pay maintenance costs in the buildings if we 
don't need it. That is one of the things we are doing, and now, 
for the record, could supply all the square footage.
    Mr. Frelinghuysen. The goal is admirable, though statistics 
still exist.
    Mr. Goldin. Yes, they do exist.
    Mr. Frelinghuysen. And to what extent when you are 
partnering with a private enterprise, private corporation. Do 
they share in the square footage costs of whatever we are 
paying?
    Mr. Goldin. We generally have very unique facilities.
    What we try and do is, in a good commercial sense, and when 
we can do good commercialization on tech transfers, we sign 
cooperative agreements. In many cases, no money changes hands, 
and that way, they come and take advantage of the unique 
Government facilities and we get the knowledge from their 
people. Sometimes we even use their facilities, but there is 
something we are going to do, and I am not sure this committee, 
nor the NASA employees, understand the full impact of it.
    We have committed to going to full cost accounting. This 
means that we will no longer be just reporting the program 
cost, but we will now have an overhead rate at NASA, and we are 
going to require reporting on this. It is going to be pro forma 
in 1998 to get experience with it, and it is going to be part 
of our system by the end of 1999.
    Where people haven't been held accountable for a lot of the 
support functions, it is going to be very visible to us and the 
committee. I think this is going to be one of the most 
effective reform tools for the next generation of reforms at 
NASA, and we will have insight into things that we are spending 
money on that we might not have to spend.
    To say the least, the level of anxiety among the NASA 
management and employees is very high. This is new to 
Government. We have been doing it in industry since there has 
been an industry. So now we are going to be reporting an 
overhead to you.
    Mr. Frelinghuysen. So you are saying, to a certain extent, 
it doesn't exist now, but it will in the future?
    Mr. Goldin. Oh, you bet, and we will be making some very 
hard decisions based upon that.
    We could tell you a square foot, but we can't relate the 
square foot to the program. Some programs may be using five 
times the number of square feet that other programs are using. 
We only have the direct charges to NASA on the programs, but by 
program, we will know how many people are supporting it.
    I remember as a contractor feeling very frustrated when 
NASA would show up at my facility and they have more people 
than I would and we were building the hardware. So all of this 
will be open.
    Now, I am not insinuating that we have bad people. I think 
we have fabulous people that don't have the visibility, and I 
think total cost accounting is going to get to the heart and 
soul of what you are asking.

               distributed active archive centers (daacs)

    Mr. Frelinghuysen. Well, there are two Federal agencies 
that could use that. Could you make a brief comment, with your 
indulgence, Mr. Chairman, on the Distributed Active Archive 
Centers? You use these centers now, is that my understanding, 
to process satellite data?
    Mr. Townsend. That is correct. I am Bill Townsend. I am the 
acting head of the Mission to Planet Earth program. We use the 
Distributed Active Archive Centers, DAACs as we call them. We 
have a number of them, about eight in total. We will be using 
them in the future to process the data from our Earth Observing 
System, and they will do the science data processing, and then 
will make that data available to the science community.
    I am informed that they can use it to do their research 
with relative to climate change issues, which the program is 
directed at.
    Mr. Frelinghuysen. Where are these centers located? Are 
they cheek by jowl with the research and flight centers?
    Mr. Townsend. No. There are some. For example, there is one 
at Goddard. There is another one at Langley and another one at 
JPL. So those are three that are associated with NASA centers.
    There are others. There is one in Boulder associated with 
the NOAA. There is one in South Dakota associated with the EROS 
Data Center. There is one in Alaska having to do with the 
collection of radar data using a high-latitude ground station 
from foreign and U.S. spacecraft. There are a couple of others 
scattered around.
    They tend to be centered around previous capabilities for 
processing certain types of data that have existed 
historically.
    Now, we are examining this in the future to see whether we 
might want to change this mode of operation. You may have heard 
of something called the ``federated approach,'' which is an 
approach to data processing and distribution we have examined 
with the National Academy of Sciences to look at how we might 
improve and how we process our data and distribute data in the 
future. We are getting ready to run a prototype activity over 
the next 3 years where we will experiment with this new mode of 
operation to see what the benefits and pitfalls of it are, so 
that we could move into that mode of operation in the future.

             earth observing system data information system

    Mr. Frelinghuysen. The EOSDIS is costing how much? I have a 
$300 million figure here.
    Mr. Townsend. In this year, about $250 million.
    Mr. Frelinghuysen. Is there a breakdown of how that money 
is spent somewhere?
    Mr. Townsend. Yes, there is.
    Mr. Frelinghuysen. I don't need it this minute, but for the 
record, if you could point it out----
    Mr. Townsend. Yes, sir.
    Mr. Frelinghuysen [continuing]. Cite the page.
    [The information follows:]

    The page that shows how EOSDIS money is spent is SAT 3-23 
of the FY 1998 Budget Justification.

    Mr. Frelinghuysen. Has NASA weighed the cost and benefits 
of having a system freely accessible by anyone who wants to use 
it, and is that something that is desirable?
    Mr. Townsend. We are in the process of looking into that. 
We have something going on right now for our entire program 
called a Biennial Review. This is a new process with Mission to 
Planet Earth program that we came up with in consultation with 
the National Academy of Sciences, based on a review that they 
did of our program about a year and a half ago. Under this 
approach, we would periodically conduct a review of the entire 
program. This is one of the questions that we would ask of this 
review; there will be an external independentreview of the 
recommendations coming out of this process later this spring.
    Mr. Goldin. There is one aspect that does concern us, and 
it has more to do with this technical limitations of the 
Internet. There is a lot of data, and the Internet is very 
slow. We at NASA are wanting to figure out how we can improve 
the capacity of the Internet. The broader band the Internet 
becomes, the greater our ability to provide this data on a more 
open basis. We are facing a little horse race here between how 
fast we put data out and how fast the Internet could accept it. 
This is another aspect.
    The other problem with the Internet is the protocol doesn't 
have priority, and we have to figure out how to do that. So, 
instead of NASA reinventing it, we are trying to work with 
industry to transfer technologies and work with the DOD and 
other Government agencies, but in the limit, if we could get 
the Internet with a higher bandwidth, we will be able to do a 
much better job in disseminating the data to anyone that wants 
it.
    Mr. Frelinghuysen. Thank you.

                                EOS AM-1

    Mr. Lewis. Thank you, Mr. Frelinghuysen.
    The fiscal year 1998 budget request for the AM series is 
$49.1 billion, a reduction of about $43 million from the 1998 
estimate in the fiscal year 1997 budget. What has changed 
within the program which allows such a large reduction? Have 
any other pieces of the U.S. program experienced similar 
reductions?
    Mr. Goldin. Faster, better, cheaper is taking hold. I am 
very proud of this NASA team.
    Mr. Lewis. You and I have discussed this, but let's get it 
on the record.
    Mr. Goldin. This is real evidence.
    Mr. Lewis. Right, yes.
    Mr. Goldin. This is real evidence, and the AM-1 platform 
remains the same. It is the AM-2 that we are talking about 
making less money, and in our Biennial Review, we are going to 
look at ways of perhaps making it even less expensive yet.

                             chem-i Program

    Mr. Lewis. Okay, good. The budget material indicates a 1-
year delay in the preliminary design review of the CHEM-I 
program which is attributed to a revised instrument schedule. 
What is the exact reason for the delay, and how can the program 
have a 1-year delay in preliminary design and critical design 
reviews and still maintain its launch date of December 2002?
    Mr. Goldin. Let me answer the second part of the question 
first. Faster, better, cheaper. We used to take 6 years to 
build platform, and in that time frame, it will take 3 or 4 
years. Why commit money before you have to commit money if it 
takes less time to do it? So that is the reason.
    Because we have extra time, in response to direction from 
our advisory panel who felt maybe there is a cheaper way of 
doing it than just using the common spacecraft which we have in 
place now, we are throwing this open to alternate methods and 
looking at perhaps a principal investigative concept where we 
don't award a contract to the bus of one company, award 
contracts or instruments to others, and then have separate 
principal investigators. Perhaps we can go vertically 
integrated. Perhaps we could break it up into three or four 
parts.
    So we are taking the extra time we have available because 
of faster, better, cheaper to see if we could really do it even 
faster and even better and cheaper.
    Mr. Lewis. Yes.
    Mr. Frelinghuysen, I appreciate your loyal and regular 
participation. We are going to be moving pretty rapidly. So, if 
you want to interject on any of these questions I am asking, 
please feel free, okay?
    Mr. Frelinghuysen. Thank you.

                            lightsar program

    Mr. Lewis. NASA has initiated the LightSAR program in 
fiscal year 1997, as directed by the Congress, but it has 
requested no funding for 1998. What is NASA's contracting 
strategy for this program? Does NASA intend to ask private 
industry to fund a portion of the development of LightSAR, and 
what has been the reaction of industry if you had that 
conversation?
    Mr. Goldin. We have a three-pronged approach to this. One 
approach is, we have something new at NASA called Earth Space 
Science Probes, which anyone could bid any concept to. It is 
the principal investigator concept, so long as it fits within a 
cost window of $90 million.
    Mr. Townsend. $120 million.
    Mr. Goldin. $120 million.
    Mr. Townsend. The first solicitation was capped at $90 
million for the first mission.
    Mr. Goldin. One possibility is that a company could win 
this competition building a radar satellite. We have a second 
opportunity. We are making a $50 million data purchase. A 
company might choose to bid the radar for that.
    So, rather than going ahead and having a classical 
procurement, the money up front, getting a contractor, and then 
having two contracts, we are holding the money back. By the 
way, this is a smart way of having uncosted carryover. We may 
not even commit all the $12 million that we have this year.
    The third approach is to work with industry in saying, 
``Okay, industry, you said you want to work with us in the cost 
share.'' So what we are doing is we are letting four or five 
market survey studies take a look at the different requirements 
we might have for such a system and asking the companies, based 
upon these market surveys, to see how they want to configure 
it, so there is a consortium of four or five companies, and 
then tell us how much money they are willing to put in. We will 
make a decision at the end of the year after all of these 
things come to closure.
    Mr. Lewis. The total cost that you anticipate falls within 
the parameters.
    Mr. Goldin. The estimate is $160 million, but now my 
question is, if this is going to be a cooperation with 
industry, if they put in 5 or 10 percent, it makes no sense to 
us. If they put in a larger percentage, then it becomes really 
a cost share. This gets back to the point I made in the 
beginning. We want to work with industry, but let's not call it 
commercial if it really is a Government program.
    Mr. Lewis. Do you anticipate a need in the fiscal year 
1998?
    Mr. Goldin. Right now, we are not sure that we do. If we do 
have a need, we will come back through an operating plan change 
and reprogram out of existing funds. We do not want more money.

                  eosdis contractor schedule slippage

    Mr. Lewis. Good. December 27, 1996, NASA issued a stop work 
order which relieved the EOSDIS contractor responsibility for 
developing release A software because of schedule slippage. Why 
was the contractor having trouble staying on schedule?
    Mr. Goldin. There were a variety of reasons, one of which 
was that they were counting on using commercial off-the-shelf 
software. That worked, but what didn't work is--and this is a 
new experience for all of us--were the interfaces between those 
stand-alone packages and the rest of the system. They should 
have known better, and by the way, NASA should have known 
better, too.
    Secondly, there is an enormous stress for software experts. 
The aerospace companies have some of the best software experts 
in the world, and the commercial sector just blossoms at paying 
premiums to steal away our people. This is capitalism. We have 
got to live with it.
    Our contractor was not able to retain all the people that 
they needed, and they really got into a terrible, terrible 
dilemma, and they didn't perform for that reason.
    Third, their management was sloppy, along with the NASA 
oversight.
    Mr. Lewis. Mr. Frelinghuysen asked a number of questions 
dealing with this area, but who is now responsible for the 
development of the really safe software and at what cost?
    Mr. Goldin. Initially, what we wanted to do--and let me put 
this into perspective. If you take a look at the Mission to 
Planet Earth program, EOSDIS is about 24 percent of it. This is 
about one-third of that, or 8 percent of the total Mission to 
Planet Earth program. So I want to put it into perspective, A. 
B, we have reserves to cover our issues. So, saying that, now 
let me explain what happened.
    In fact, we were expecting that our contractor would have 
an early release of the core programs that they were going to 
have for their ECS system, but they did not perform. This was 
going to be an early test, but we have to launch a spacecraft, 
the Tropical Rain Fall Measuring Spacecraft, and we need the 
software in time.
    The other part of the problem was because they had not 
enough software people. Instead of doing the real core of the 
job, getting ready for the AM-1 launch, they were getting 
diverted. So we said we have got to get the phase B done, which 
is getting ready for the AM-1 launch. So we, NASA, took over 
the job that is being done at NASA-Goddard and NASA-Langley. It 
is about $5 to $6 million in additional development cost and 
about $12 million additional operating cost.
    So this contractor's lack of performance is costing the 
Federal taxpayers $17 to $18 million. We have it within our 
reserves, but once again, we like to compliment contractors. In 
this case, we are not happy with their performance.
    Mr. Lewis. Did you have a release date for the currently 
estimated?
    Mr. Goldin. Yes. It will be ready a month or two before 
launch, in September.
    Mr. Lewis. In September. Great.
    I understand the contracts originally were in the 
neighborhood of $760 million. Did NASA reduce the value of its 
contract with the contractor to reflect the reduction in the 
work being performed?
    Mr. Goldin. Bill, do you want to answer that?
    Mr. Townsend. We are in the process of issuing a change 
order to modifications of the contract, and we are currently in 
negotiations with Hughes on that point.
    Mr. Lewis. Okay. We will be interested in hearing about 
that.
    Mr. Goldin. The Hughes management is trying very, very hard 
to remedy the situation. This is a tough, tough job, but they 
have got to perform better. I want you to understand that we, 
NASA, are not going to allow this program to get into trouble, 
and Bill Townsend has commissioned a study at the NASA-Goddard 
Center that says what would we do if there is lack of 
performance on Phase B, and what would we do if that lack of 
performance is so bad that we would like to recompete the whole 
contract.
    Now, on the positive side, the Hughes management has 
stepped up and said they are going to perform. But we want to 
be sure everyone understands NASA is not going to be held 
hostage.

                                landsat

    Mr. Lewis. Okay, good. LANDSAT. The U.S. Geological Survey 
is the designated agency for archive of LANDSAT-7 data. Does 
USGS currently have archive capability or will capability need 
to be developed?
    Mr. Goldin. Bill, do you want to----
    Mr. Townsend. Sure. They currently do have archive 
capability because they are currently the land remote sensing 
data center. They are currently, for example, handling LANDSAT-
4 and -5 data. So they currently have the capability. They will 
need to augment that capability to handle LANDSAT-7, and they 
have the funding necessary to do that.
    Mr. Lewis. They do, okay.
    How does the USGS capability compare to the EOSDIS efforts 
under development?
    Mr. Townsend. Well, in the case of EOSDIS, it is in the end 
system approach, which includes spacecraft operations, 
collection of data, the processing of that data into a form 
that research can be done with it, and then the archival and 
distribution of the data. That is what EOSDIS is designed to 
do.
    In the case of the task that the USGS has for LANDSAT-7, it 
is just the archival and data distribution function. NOAA is 
responsible. It is a tri-agency program. It is NASA, NOAA, and 
USGS. NOAA is responsible for spacecraft operations, data 
capture, and then processing the data, and then, USGS, of 
course, is responsible for archival and distribution. NASA is 
responsible for the development of the space segment.
    Mr. Lewis. That relationship, then, is the reason for USGS 
doing archiving rather than NASA EOSDIS?
    Mr. Townsend. That, plus the fact that they have designated 
in Public Law 102-555 as the agency to do that function.
    Mr. Lewis. Should it be different from that?
    Mr. Townsend. I don't believe so. They are doing an 
excellent job of it.
    Mr. Goldin. We have a great relationship with USGS and are 
very, very satisfied with their performance.
    Mr. Lewis. Okay. If you could just round out those 
questions, that would be fine.
    We have discussed a little bit the costs and carryover, and 
we have some additional questions, but we can do that on the 
record, too.
    Mr. Goldin. Okay.

                  advanced x-ray astrophysics facility

    Mr. Lewis. The Advanced X-ray Astrophysics Facility, the 
third of NASA's great observatories, is scheduled for launch in 
August of 1998. One component of the facility is the science 
instrument module which will house the two focal plane science 
instruments. The material submitted to the committee indicate 
that the completion of the module is over 1 year behind 
schedule. Yet, the launch date of the facility has not been changed. 
Can you explain to us how it is possible for a key element to be over 1 
year behind schedule and still launch in time?
    Mr. Goldin. Well, again, I am very proud that NASA----
    Mr. Lewis. Faster.
    Mr. Goldin. Yes. Let me tell you, these folks--this is a 
program in excess of a billion dollars. They said we need to 
test the mirrors at NASA-Marshall, and this very critical 
element, the science module is not available. So, for a million 
dollars, they built a surrogate module that didn't have to be 
flight quality that allowed us to do the testing down at NASA-
Marshall and, in parallel with that testing, they were able to 
build this other module. Then, when they have to do the final 
integration of test of the spacecraft, it will be there on 
time.
    This is what is so wonderful about NASA. Our people are 
very, very imaginative, and they did a heck of a good job on 
this.

                           discovery program

    Mr. Lewis. Good. I will just go ahead. The Discovery 
program is intended to provide frequent access to space for 
small planetary missions with short development schedules. The 
overall goal is less than $150 million in cost and no more than 
3 years from start of development to launch. The budget for 
fiscal year 1998 includes $64 million for future missions which 
are undefined.
    Does the announcement of opportunity contracting 
methodology define the specific mission NASA wishes to pursue, 
or is it open to anything investigators want to propose?
    Mr. Goldin. No. This is a new NASA. We will tell people 
what we want, not how to do it. The whole purpose of this 
Discovery program was to allow the scientific and industrial 
community to have complete freedom. They bid an entire package. 
The principal investigator is in charge, and generally, we have 
one or two NASA people on these programs.
    Mr. Lewis. When do you expect to define the fiscal year 
1998 program?
    Mr. Goldin. The selection notice is coming out about April 
1st. We will down-select to about five or six----
    Mr. Lewis. April 1st, that is a good date.
    Mr. Goldin. Great date. To five or six contractors by the 
end of August. We will downsize to five or six contractors, and 
then by the end of August, we will have the reports.
    One of the things we learned in the first solicitation for 
Discovery was that we had a flaw in the process, and Wes 
Huntress had a review. This review said we needed more time to 
develop the cost and better understanding. The first go-around 
was going to be on science, and the second go-around was going 
to be on cost in program management. We hope by the end of 
September to select the winning contractor. So, within a few 
months, you will be able to see the different concepts, and by 
perhaps October 1st, the start of the new fiscal year, we will 
have an award.

                        sounding rocket program

    Mr. Lewis. Okay. The budget material indicates that the 
fiscal year 1998 sounding rocket program will have only 14 
flights versus 26 flights in fiscal year 1997. In addition, 
none of the 1998 flights are planned for the Wallops Island 
Flight Facility.
    Could you explain the reduction in flights as well as the 
decision to conduct most flights from Puerto Rico?
    Mr. Goldin. Sure.
    Mr. Lewis. Explain, if you will, also the components of the 
Wallops 2000 plan.
    Mr. Goldin. First, we will probably have 20 to 25 flights. 
At the present time, we have 14 defined.
    Mr. Lewis. Okay.
    Mr. Goldin. There is a process through the year to make 
sure they are ready to fly, and again, Wes knows he is not 
allowed to overrun. So he has put a process in place to have a 
control, and he also doesn't have much uncosted, so much for 
that.
    Some of the flights will come out of White Sands and 
Wallops. Now, every 5 or 6 years, we come back to Puerto Rico 
because we want to take advantage of the radio telescope at 
Arecibo. So we get simultaneous measurements from sounding 
rockets and using that radio telescope. That is the reason we 
have a large number of flights in Puerto Rico this year.
    Mr. Lewis. Off the record just for a moment. Back on the 
record.
    Mr. Goldin. No. I am not going to Puerto Rico.
    Mr. Lewis. On the record.
    I did ask you to explain the components of the Wallops Plan 
2000.
    Mr. Goldin. Yes. We were concerned that Wallops had an 
incredible facilities, very low cost, but they were drifting; 
that the sounding rocket program wasn't as focused as it could 
be; and that they were going to see changes because, as we get 
the launch cost down for low orbital vehicles, we will start 
doing a lot more university research there.
    So we have now given the leadership role to Wallops Island 
for all sounding rockets, but we have expanded to say, really, 
for low-cost university class programs. So that would be 
getting involved in the university research program. The object 
there is to build complete spacecraft and payloads and 
operation on the order of $4 million and to have a million-
dollar launch or a $2-million launch. So this is going to be a 
very significant new role.
    If we are successful, I am hoping that we will be seeing a 
dozen launches a year coming from universities for a price that 
we can afford. So that is a very major step for the Wallops.
    Given that they are going to get involved in that, they are 
working with NASA-Marshall and some of our commercial 
contractors in providing operational test facilities for new 
generation on these very, very, very small launch vehicles and 
sounding rockets. That is another new role for them.
    Finally, we are going to work with the Space Port Authority 
in Virginia to encourage commercial launches there, and for the 
operations aspect at Wallops, we are working with the Navy 
because there is a lot of work that the Navy does at the 
Wallops facility, and we have incredible aircraft capability 
there and other operational capability that the Navy could use. 
They don't have to build a separate facility. This gets back to 
the cooperation question that we were talking about with other 
members of the committee.

                       developing new technology

    Mr. Lewis. Okay. Just a couple more questions, and then I 
will turn to Mr. Frelinghuysen.
    The budget material includes $75 million for the New 
Millennium program, $151 million for Advanced Space Technology, 
and $311 million for Supporting Research andTechnology. All 
three of these programs fall in the area of developing new technology.
    What is the distinction among these three efforts?
    Mr. Goldin. Well, first, the Advanced Space Technology 
program is generic technology that we work on that benefits all 
our space programs.
    New Millennium is a program to validate cutting-edge 
technology, and under New Millennium, we are working on outer 
planet technology. One of the significant problems we are 
facing up to today is as you go to the outer planets, you don't 
have solar power, and you have to go to some other form of 
power. Right now we use radioisotopes. They are very expensive. 
They are very heavy, and they are very inefficient.
    So one of the things we are doing as part of the New 
Millennium program is to see if we can build a Next-Generation 
system that has a much higher efficiency. Right now the 
efficiency is measured 4 to 5 percent. We are looking for 
efficiencies of 25 percent.
    The other aspect is we want to get the power consumption 
down. So we are working on Next Generation semiconductors that 
perhaps could be 20 to 25 percent--20 times less power. Now, 
all of a sudden, you will have to carry much less radioisotopic 
material, which will make it much lower cost, much simpler to 
operate, and the public will have a higher confidence in it. We 
have a whole series of those technologies that we are trying to 
validate on the New Millennium program.
    The Supporting Research and Technology is the traditional 
science support that we have, and now with the Origins program, 
it is going to support these very large interfenometers, the 
Next Generation Hubble Space Telescope, and the basis of all 
the science that we do. So those are the three programs that we 
have.
    Mr. Lewis. Okay. The total of these three programs grew by 
about $160 million in fiscal year 1996 and 1997 budget levels, 
between those two. What is the cause of this adjustment, 
significant dollar adjustment?
    Mr. Goldin. I will let Mr. Peterson talk to the dollar 
details, but let me say, what we want to do at NASA is make it 
in the limit of a research and analysis agency, research and 
technology agency, and get out of operations, and that is why 
we are pushing commercialization hard.
    Again, I accept the one thing that Potomac Institute said, 
not as fast as we would like to, but as fast as we know how to.
    As a result, we are seeing a change, a shift. We have 
reprogrammed operations money and put it into advanced 
technology that will really be cutting edge. This is what we 
had talked to this committee about over the last few years, and 
you are now seeing the results. You are seeing an increase in 
the research and technology account, while the budget is coming 
down $200 million, which is another thing we promised to do.
    So, not only do we sign up to a budget that is coming down, 
we said measure us on output. We are going to reprogram 
operations and do that more efficiently and convert that money 
into cutting-edge technology.
    Mr. Lewis. Thank you.
    Mr. Goldin. Now, can you comment on the detail?
    Mr. Lewis. Go ahead.
    Mr. Peterson. Well, the fundamental, of course, is that one 
of the major administration initiatives for NASA this year was 
aggressive implementation of the New Millennium technology 
program in terms of the Origins program. So the beginning part 
of the Origins program is a technology development program, and 
so the larger infusion is designated for that. It is tied 
around a number of the things that we identified, like the Keck 
II interferometer and advanced technology development and 
Astrobiology and Astrochemistry research.
    We have a little disagreement on the numbers. We think the 
numbers only went up about $112 million, but it was an 
appreciable increase, nonetheless, and the reason for that is 
because we are putting a tremendous amount of effort into this 
new initiative.
    Mr. Lewis. Just help us with that for the record.
    Mr. Peterson. Yes, sir.
    [The information follows:]

    As noted by Mr. Campbell, the funding levels for these NASA 
technology programs actually grew by about $112 million, rather than 
the $160 million cited in the Chairman's question. This net increase is 
a result of the following:
    The New Millennium Program is proposed for an augmentation in FY 
1998. The augmentation will initiate aggressive technology development 
and demonstration efforts needed for future deep space missions. This 
augmentation responds to the NASA Administrator's direction to explore 
the outer solar system with ``cutting edge'' next-generation spacecraft 
that are more robust (safer to launch) and which use new power sources.
    The President has also recommended augmentation in FY 1998 for 
Supporting Research and Technology (SR&T). These include $25.0 million 
for Origins Technology Development, $20.0 million for Exploration 
Technology Development, $10.0 million for the Keck II Interferometer, 
and $27.0 million for the new Astrobiology and Astrochemistry research 
programs. All of these fall under the President's new Origins 
initiative. The current budget runout for Origins allows for 
preliminary work on advanced telescopes that would be launched early in 
the next decade. We have set as our goal developing these next-
generation telescopes at a cost, on average, equal to or less than one-
tenth the life cycle cost of the Hubble Space Telescope, the world's 
premiere observatory. That is an ambitious goal, but it is one that we 
think we can accomplish. The costs of individual telescopes will depend 
on the design of the missions selected and on how much technology can 
further drive down the costs.
    Growth in Advanced Spacecraft Technology restores cuts in program 
funding that occurred in FY 1997.
    The New Millennium program consists of:
          Core Program to space validate cutting-edge technologies
          Outer Planets Technology program to concentrate on next 
        generation spacecraft (micro-miniaturization, new structure, 
        new materials),
          An Advanced RTG (Radioisotope Thermoelectric Generator) 
        program to develop advanced radioactive power sources for outer 
        planet missions, and,
          Center for Integrated Space Microsystems program to do 
        fundamental development of micro-devices and to carry out 
        mission studies leading to ``spacecraft on a chip'' concepts.
    Supporing Research and Technology (SR&T) activities include:
          Traditional Science Research and Analysis (R&A),
          The Information Systems and High Performance Computers & 
        Communications (HPCC) programs,
          Advanced Technology Development (ATD) activities devoted to 
        near-term (1999-2004) Space Science missions,
          Origins Technology to enable the first large-scale 
        interferometer, to develop large telescope concepts to search 
        for extra-solar planetary systems, and to study the origins of 
        galaxies,
          Exploration Technology to enable effective exploration of the 
        surface of solar system bodies large and small anticipated in 
        the next generation of planetary exploration (including sample 
        return missions).
    The Advanced Space Technology program contains:
          The crosscutting technology efforts formerly managed by 
        NASA's Office of Space Access and Technology (Code X). This 
        program largely develops generic technological capabilities 
        addressing the needs of more than one NASA Enterprise (e.g., 
        Human Exploration, Space Science, Mission to Planet Earth, 
        Aeronautics)
          Far-term fundamental technology studies and research,
          Some Space Science Enterprise-unique technology work, and,
          Advanced concepts for Space Science's future needs.

    Mr. Goldin. And by the way, I might say that the President 
has been unbelievably supportive of this new direction. It is 
research and technology, and he is very supportive of the 
Origins program, which we think is going to return back 
incredible science, but more importantly than that, technology 
that is going to impact the communications sector, the 
information sector, advanced materials. So I think we are going 
to have a tremendous payback on that.
    Mr. Lewis. Mr. Frelinghuysen?

             high-performance computing and communications

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Goldin, the government-wide budget for High-Performance 
Computing and Communications increases by over $100 million in 
fiscal year 1998 for the Next Generation Internet. What is 
NASA's portion of the $100-million increase for the Next 
Generation Internet, and what is NASA's responsibility in the 
program?
    Mr. Goldin. It's $10 million measured over a 3-year period 
of $10 million a year.
    Mr. Frelinghuysen. Are there any costs associated to your 
agency relative to the whole issue of recalibrating computers 
for the year 2000 and beyond?
    Mr. Goldin. Yes, $32 million.
    Mr. Frelinghuysen. $32 million.
    Mr. Goldin. But let me come back to this. We have an expert 
capability in networking management, and we are going to apply 
that to the networking. The place that we really shine is in 
virtual environments. This is very crucial to the future of the 
space program.
    So the thing that I am pleased about is we are working on 
things that NASA has a cost scale in and things that will 
benefit the space program, but at the same time, we all know 
that that Internet needs to be improved, and that will benefit 
all young people and all the like.

                             airline safety

    Mr. Frelinghuysen. Thank you.
    Earlier in your testimony, you made reference to the whole 
issue of NASA's involvement with airline safety, the White 
House Commission report, issued earlier this month, and you 
made mention that you were going to be involved in assisting 
and reducing the crash rate of the aircraft incident rates, 
five-fold within 10 years. What specifically will be NASA's 
role, and what do you anticipate the costs will be?
    Mr. Goldin. Well, first, let me say that we will take the 
lead in the R&D, but to actually see the reduction in crafts, 
it is going to take a partnership between the FAA certifying 
it, the aircraft companies building it, and the airlines 
operating it, but we felt it was very important to come to a 
bottom-line goal and not have a bunch of technology goals. So 
we have gone out on a line, but we have met with the CEOs of 
these companies. We are working with the FAA and DOD, and we 
feel we have a good chance. NASA's role will be to lead the 
R&D, cutting-edge R&D that will then be transferred to the 
industry.
    Mr. Frelinghuysen. Have you been involved already on this 
issue, or is this a new venture?
    Mr. Goldin. I would like to say that NASA is proud to have 
been involved in it. We have been asked by the Vice President 
to step up to this, and we are very excited about it. No, we 
have been involved.

            centers for the commercial development of space

    Mr. Frelinghuysen. In the past, NASA has provided financial 
support to a number of Centers for the Commercial Development 
of Space. What have been the results of the support provided by 
NASA, and do you believe continued support of these centers 
should come from NASA, or is this an area which should be 
wholly supported by industry?
    Mr. Goldin. First, let me provide some perspective. We have 
10 or 12 centers, and they get funded to the tune of 1- to $1.5 
million a year. So it is a very, very limited amount of money 
relative to our budget, but there is a certain cache associated 
by being associated with NASA that helps these areas, and these 
different centers are getting on the order of twice the NASA 
funding from the private sector. Again, it meets my criteria as 
something that makes sense because NASA is less than half of 
the funding.
    I could tell you that the car I drive got technology 
transfer through the Auburn Center to build a power system that 
works. I had a 2-year-old version of this car, and my wife was 
driving and it stopped in traffic because there was something 
fundamentally wrong with the power system, and because of the 
NASA technology transfer, we have a very good one. That is a 
personal story, but there are other stories.
    Mr. Frelinghuysen. Your wife said do something about it.
    Mr. Goldin. Very graphically.
    Mr. Frelinghuysen. Let's hope this doesn't happen with any 
underwater adventures.
    Mr. Goldin. I think I might be getting into some of that. 
We have a very successful venture led by Dr. Larry Balukus at 
the University of Birmingham. It is the Center for 
Crystallography, and they have a whole series of drugs and a 
new company called Biocryst that have come out of this, and 
they are certifying a drug that is expected to be a major 
factor in stamping out influenza on a generic basis, and there 
are a series of drugs in the process right now. That came out 
of the CCBS and the microgravity work we did on the shuttle.
    We are doing work in developing materials for cancer 
chemotherapy. We have a whole series of machine tool materials 
that we are working on. We did some work on some drugs that 
might be used against AIDS. Aerojet is developing an aero gel 
that could have a tremendous capacity in the optical area.
    It is in its embryonic stages now. Probably, the biggest 
problem is that we, NASA, are not giving them enough flight 
opportunities, and it comes back to the limitations we have on 
flight, and in fact, if you take a look at the funding over the 
next few years, the number of flights, it is going down, not 
up, because while we build the Space Station, we don't have the 
capacity to do everything.

                          wake shield facility

    Mr. Frelinghuysen. One of those that has benefitted from 
flights, I believe, three times is the Wake Shield facility.
    Mr. Goldin. Yes.
    Mr. Frelinghuysen. Does NASA plan to continue providing 
shuttle space for the Wake Shield facility, and if so, what are 
the costs and benefits?
    Mr. Goldin. I think we have seen some incredible outputs in 
the Wake Shield. On our third flight, we flew seven samples 
that built semiconductors in a vacuum environment a hundred 
times better than you could have on the ground, and it looks 
like we got some real good results.
    We are anticipating the possibility of a fourth flight, but 
let me come back to what I was saying before. We want tohave 
industrial participation in that fourth flight because this is not a 
scientific experiment, anymore. The science is over.
    So we are working with the folks at the University of 
Houston and the Epitaxy Center, and we are trying to bring on 
industry. The next flight, instead of having seven test sites, 
might need something like 5 to 10 more test sites, which could 
cost as much as $16 million. So we are trying to see if there 
is some way of getting industry involved and doing some market 
survey so if we do the next flight, it really could begin to 
turn commercial.

                          commercial services

    Mr. Lewis. Our committee's report for the fiscal year 1997 
appropriations for NASA, in that report, the committee asked 
NASA to develop and utilize alternative methods for determining 
the value and the price of commercial services offered under 
the firm fixed-price contracts. One, does the current 
methodology used by NASA include a contract pricing structure 
with three elements, A, recurring costs, B, fixed costs 
(asset), and C, fee?
    Mr. Goldin. The answer is yes when there is no competition. 
If we have competition, which is in the commercial area, we are 
not interested in having any breakdown because the commercial 
marketplace can do that for us.
    Now, there are a couple of contractors who get sole source 
business from us in the commercial area that would like to do 
it without the breakdown, and we are not going to allow it.
    Mr. Lewis. Does the current NASA methodology provide for a 
continuing allowance for fixed cost beyond the depreciation 
schedule for the asset, or is it possible in your contract 
pricing structure to arrive at zero fixed cost for an asset?
    Mr. Peterson. I would like to answer for the record. It is 
a little technical, but basically, we have to follow the 
Federal Acquisition Regulations.
    [The information follows:]

    The Federal Acquisition Regulation (31.205-11(e)) requires 
contractors to utilize a depreciation method acceptable for 
Federal income tax purposes.

    Mr. Frelinghuysen. Does the NASA policy allow for 
negotiation of the fee portion of a contract to compensate 
contractors for the higher risk associated with space-based 
operations?
    Mr. Peterson. Yes. There is a statutory limitation on it, 
and it is that limitation that has to be put in effect.
    Mr. Frelinghuysen. The National Space Policy issued in 
September 1996 encourages the use of innovative procurement 
methods. Is NASA being innovative?
    Mr. Goldin. I would like to get at the core of this.
    Mr. Lewis. For the record.
    Mr. Goldin. For the record, some contractors on a sole-
source basis would like to negotiate a fixed-price contract and 
then negotiate fee, and we want to turn this commercial, so 
that we can get to some real competition. We won't have to 
worry about these issues. So it gets back to the basic theme 
that we had in this session.
    We would like to avoid doing this, but if we have to, we 
will.

                     innovative procurement methods

    Mr. Frelinghuysen. The National Space Policy issues in 
September of last year encourages the use of innovative 
procurement methods. Is NASA being innovative? I presume from 
your previous answers, you are.
    Mr. Goldin. Yes, sir, and for the record, I will list 59 
ways we do it. No, about 5 or 10.
    [A copy of the ``Procurement Initiatives'' follows:]


[Pages 69 - 70--The official Committee record contains additional material here.]


                      technology transfer programs

    Mr. Frelinghuysen. Relative to the issue of technology 
transfer, and during all of your responses and your statement, 
you have touched on this, and you have given us some examples.
    President Clinton released a National Space Policy in 
September of last year covering civilian, military, and 
commercial space issues. Included as part of the commercial 
policy is a reference to technology transfer policy. 
Specifically, the policy states that the United States 
Government to provide for the timely transfer of Government-
developed space technology to the private sector in such a 
manner as to protect its commercial value. What does that 
statement basically mean to you, and secondly, what specific 
programs are in place within NASA for technology transfer?
    Mr. Goldin. It means that we have an agency-wide technology 
transfer program at the direction of the President, which we 
do, and in fact, the third mission in NASA's mission statement 
deals with the fact that we have technology transfer. That is 
in our strategic plan.
    We have a commercial operation led by Dr. Robert Norwood. 
We expend something on the order of $34 million a year, and 
under that, we have six regional technology transfer centers, a 
national technology transfer center. We have five business 
incubators, and we have a very broad-based plan where we have a 
commercial center at each of our NASA centers, plus the Jet 
Propulsion Laboratory.
    I did publish what I call the agenda for change which talks 
about how NASA is going to be involved in technology transfer, 
and we would like to submit that for the record because it 
deals with the details of the question you just asked.
    Mr. Frelinghuysen. Okay, consider that done.
    [A copy of the ``Agenda for Change'' follows:]


[Pages 72 - 89--The official Committee record contains additional material here.]



    Mr. Frelinghuysen. Are there any technology transfer 
programs funded within NASA which are not cost effective, and 
perhaps deliberately so? I will give you an out.
    Mr. Goldin. I think we could be accused of ignorance, but 
not malice. I don't believe we have anything that is 
deliberate, but given the size of the agency, given the fact 
that we could always do better, without even going in there, I 
think we would have some issues and problems.
    I would also have to say that the IG has done a study in 
some areas and has found some issues, and we are addressing 
them. You know, it is an independent relationship we have with 
the IG, but I think the IG provides a tremendous value to NASA.
    We also have a study by NAPA, the National Academy of 
Public Administration. We have asked them to come in based upon 
some of the studies the IG did to review our technology 
transfer program and tell us what we are doing right, tell us 
what we are doing wrong, and then we will step forward and we 
will make sure that the committee is aware of what the report 
says.

              nasa commercial technology inventory report

    Mr. Frelinghuysen. Is it fair to say you have reviewed the 
NASA IG's report on NASA Commercial Technology Inventory 
Report?
    Mr. Goldin. Yes.
    Mr. Frelinghuysen. And you support the goals, the findings 
of that report?
    Mr. Goldin. It is a very difficult problem that we have, 
and I agree with the report that the IG wrote. The dilemma we 
have is our contractors always want to have an additional edge, 
and they don't like the concept that they have to go public 
with some of these things. So the question is how could we 
incentivize the contractors to go public and provide access to 
other companies without trying to hold onto it themselves when 
they are working with public money. It is a tough, tough 
problem, but one that I believe we have an obligation to deal 
with.
    Mr. Frelinghuysen. But generally speaking, the IG review 
determined that the new technology reporting process as it 
relates to reporting by large business contractors is not as 
effective as it should be and lacks agency-wide direction and 
management support?
    Mr. Goldin. She is right. She is right.

                      technology transfer programs

    Mr. Frelinghuysen. Lastly, could an effective report 
increase the value of NASA's technology transfer programs?
    Mr. Goldin. This gets to the place of can we get the 
contractors to come up with the cream of the crop. Sometimes 
they put their own money into it, and once they put their own 
money into it, it is very hard to separate out what is public 
domain and what is their domain, but I believe we have got to 
figure out how to do this better.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you, Mr. Frelinghuysen.
    Earlier, we discussed a number of personnel questions, and 
while we may have some additional for the record, we have 
generally covered that area.
    Mr. Administrator, last September, the General Accounting 
Office issued a report.
    By the way, Mr. Frelinghuysen, the comment on NAPA that the 
director was talking about is different than the product of 
Napa County, California, in case you didn't know.
    Mr. Goldin. Jeffrey Lawrence will help you with that one.

                      nasa's television operations

    Mr. Lewis. Excuse me for that aside.
    Last September, the General Accounting Office issued a 
report on the expenditures associated with the external and 
internal public affairs at NASA. The report states that NASA 
headquarters spent $20.8 million and the 10 field centers spent 
$20.1 million in fiscal year 1995.
    What portion of the total funding, $40.9 million, is 
associated with NASA's television operations?
    Mr. Peterson. $4.8 million, sir.
    Mr. Lewis. $4.8 million.
    How many employees or contract employees are dedicated to 
NASA's television operations, and what are the salaries and 
benefit costs for those employees?
    Submit those for the record.
    Mr. Peterson. I will be glad to, sir.
    [The information follows:]

    There are 11 civil service employees dedicated to NASA 
Television Operations. Their current total salaries and 
benefits are $629,100.
    There are 39 contractor employees dedicated to NASA 
Television Operations. Their current total salaries and 
benefits are $986,600.

    Mr. Lewis. Why does NASA have a television operation, and 
how long has it been in operation?
    Mr. Goldin. I will take that. Probably, the most important 
thing we need the NASA television operation for is the fact 
that we run real missions with real people around the clock, 
and it is a very, very important communication tool, first, 
from a safety standpoint and, second, from a science 
standpoint. So it ties all our centers together, and then we 
also use it for robotic launches and robotic missions.
    Secondly, there is a tremendous interest by the American 
public to know what is going on. When we have missions, it just 
has people glued to their TVs. Now, what NASA does is provide 
raw output. We have tried to make sure that we don't 
editorialize. We try and be like C-SPAN, if you will, you know, 
here are the raw facts. So that is the second function.
    Mr. Lewis. If you try not to editorialize, it will be fine. 
You don't have to talk about C-SPAN.
    Mr. Goldin. Okay, I'm sorry.
    Mr. Lewis. That is all right.
    Mr. Goldin. We use it for educational development at some 
of our centers, and we also make it available to the press. We 
put on what is called B roll, which is unedited material, and 
then the press could take it and decide how they want to use it 
again because of the tremendous interest.
    Finally, a lot of people from the press want to talk to 
NASA astronauts, scientists, and management officials, and it 
saves us a lot of time and trouble because we could use the 
satellite TV links to hook up people around the country when we 
have a problem or when we are having some good science going 
on. So those are the primary functions.
    We have tried to eliminate all other non-essential 
activities for the system so we could be very frugal in the use 
of it.
    Mr. Lewis. Yes. I have often discussed this subject by way 
of talking about selling the sizzle. If the public doesn't know 
what you are doing and they can't get excited by some of the 
results, et cetera, sometimes their enthusiasm can disappear or 
at least be diminished, and frankly, I think so far we have 
done a pretty good job of that, although I encourage more of 
it.
    Recently, I was discussing a disease I hadn't heard about 
before that has to do with Latin American----
    Mr. Goldin. Chagas disease.
    Mr. Lewis. Chagas disease. We have done some experimenting 
with in terms of crystals. I think the more the public knows 
about some of those things--you mentioned earlier the 
pharmaceutical companies are quite interested in our flights, 
but no small reason for that is because of the tremendous 
potential that relate to bettering people's lives, lengthening 
lives, and improving health care generally. I am not sure the 
public always understands NASA's relative role to that.
    The more those people out in the mobile home parks in 
America hear people say why we should be spending this money in 
space, the more you can tie it to their health and their 
grandkids' health and so on. All that is very relevant.
    Mr. Goldin. Let me tell you, when they turn on direct 
broadcast TV, which is now going to be a multi-billion-dollar 
industry, that came from NASA. I mean, I don't know if you are 
aware of it, Mr. Chairman, but NASA flew the first experiment 
in direct broadcast TV in 1976, and the young engineer who is 
working on that is named Lan Golden who has a patent.
    Mr. Lewis. Sam Goldin?
    Mr. Goldin. Lan Golden, for the record.
    But I had the privilege of being in industry and working 
with NASA on that particular system, and it was done a few 
decades before any commercialization took place, and that is 
the type of thing we do, and when we did it, there were those 
concerns saying why should NASA be doing it. Well, we needed to 
develop telecommunications and telemedicine. That is why we did 
it, and the public benefitted by that particular activity. So 
now thousands of people have jobs, and millions of Americans 
have the luxury of direct broadcast TV.

                      national wind tunnel complex

    Mr. Lewis. Yes. Sometimes there is a lot of meat to the 
sizzle, but it is worth selling as well.
    Briefly, to wind tunnels, the fiscal year 1995 
appropriations included $400 million for construction of a 
national wind tunnel complex. The funding was to be made 
available contingent upon follow-on funding being included in 
the fiscal year 1996 budget request.
    The follow-on funding was not requested, but the Congress 
modified the fiscal year 1995 language to allow more time for 
study of the requirements. The time for study was also extended 
in fiscal year 1997, and a further extension is proposed for 
inclusion in the 1998 bill.
    What is the Government's plan for wind tunnels, and why 
should the $365 million left in the program remain available 
for this effort?
    Mr. Peterson. If I can answer that, sir. As you know, we 
are allowed to spend $35 million out of the $400 million in 
order to look at ways we can improve wind tunnel testing and 
have that attribute more effectively to the design process.
    Now, the $365 million residual amount, the administration 
decided that it would not be necessary to make a decision at 
this time to ask for recision of those funds. They wanted to 
give the process a little time to play its way out in terms of 
what studies are currently going on.

                         aircraft consolidation

    Mr. Lewis. Thank you.
    A very brief question and a very brief answer. Fiscal year 
1997 appropriations included authority to consolidate NASA 
aircraft at Dryden. How many aircraft have been moved to Dryden 
Flight Research Center?
    Mr. Goldin. Zero.

                       multi-year appropriations

    Mr. Lewis. Just moving right along. Multi-year 
appropriation. The budget proposal includes a request for 
multi-year appropriations for the International Space Station, 
Space Infrared Telescope Facility, X-33 launch vehicle, 
Tracking and Data Relay Satellite replenishment, and a 
Stratospheric Observatory for Infrared Astronomy. Why are these 
particular programs selected for including in this proposal?
    Mr. Goldin. The Administration would like to get the total 
program funding eventually for programs like NASA that provide 
stability so people could count on it, and the administration 
proposed it last year, and this year, they would like to try 
again so that we could do total budgeting.
    The experience of other departments when we do total 
budgeting really ends up in a more efficient operation. I know 
that this is at odds with some of the processes in the 
Government, but this is the major argument that the 
administration has.
    Mr. Lewis. And all of those arguments that relate to multi-
year funding relate to this answer, I am assuming, and we have 
been through that before, here and at other committees. So, if 
you want to round it out for the record,that is fine, but that 
is enough.
    I must say we proceeded reasonably expeditiously today. Mr. 
Obey did want to be here to ask some questions. I know that Mr. 
DeLay and others may have questions for the record. So we will 
keep it open for that purpose, but in the meantime, I want you, 
Dan Goldin, but also all of your very fine professional staff 
to know how much we appreciate the cooperation that we have had 
over the years, the very tough discussions regarding cheaper, 
faster, better, et cetera.
    This agency has been very responsive overall. We may have 
questions and criticize each other from time to time, but I 
must say it has been a very positive relationship. We very much 
appreciate the cooperation, and with that, do you have any 
closing remarks? Otherwise, we will move on.
    Mr. Goldin. The only thing I would like to say, in 
response, is that I appreciate the confidence you have in us, 
and it is not the administrator. It is these people here and 
all the people who work for them. I want to tell you that 
working for me is not easy.
    I push people very, very hard not because I want to punish 
them.
    Mr. Lewis. People keep telling me that. I keep saying he is 
such a nice guy.
    Mr. Goldin. But I wouldn't push them if I didn't think they 
were outstanding.
    Mr. Lewis. Yes.
    Mr. Goldin. NASA had outstanding people before I came, and 
they will be outstanding after I leave. I want you to 
understand the tremendous confidence I have in the people at 
NASA. They are a unique breed. They work long hours. They work 
with an incredible intensity. They get offers from industry to 
make lots more money, and they choose to stay because they 
believe in the future of our country.
    Mr. Lewis. Fine. Well, I think, Mr. Administrator, I think 
this concludes our meetings for now. It kind of eliminates the 
need for a meeting tomorrow.
    [The statement of Mr. Goldin follows:]



[Pages 95 - 124--The official Committee record contains additional material here.]



    Mr. Goldin. So we are done?
    Mr. Lewis. We are finished. You are free, and it is only 
3:35.
    Mr. Goldin. I like it.
    [The following was submitted to be included in the record:]

[Pages 126 - 285--The official Committee record contains additional material here.]





                               I N D E X

                              ----------                              
                                                                   Page 
Administrator's prepared statement............................... 95-116
Advanced Space Technology program................................     62
Advanced X-Ray Astrophysics Facility.............................     60
Aeronautics research programs....................................   8-10
Aerospace Safety Advisory Panel.................................. 51, 52
Agenda for Change (insert).......................................  72-89
Aircraft consolidation at Dryden.................................     93
Aviation safety............................................... 9, 10, 65
Brazil...........................................................     42
Budget summary--charts and tables............................... 117-123
Cardiac imaging.................................................. 38, 39
Centers for the Commercial Development of Space.................. 66, 67
Centers of Excellence............................................ 30, 50
Chemistry-1 program.............................................. 56, 57
Cleveland Clinic.................................................     38
Commercial Technology Inventory Report...........................     90
Commercialization.......... 39, 40, 41, 43, 45-47, 57, 58, 66, 67, 71-89
Department of Defense cooperation........................ 21, 29, 30, 31
Discovery program................................................ 60, 61
Distributed Active Archive Centers............................... 54, 55
Earth Observing System AM series.................................     56
Earth Observing System Data Information System:
    Contractor schedule slippage................................. 58, 59
    Costs and benefits........................................... 55, 56
Earth Space Science Probes....................................... 57, 58
Evolved Expendable Launch Vehicle................................     49
Financial management................................. 11, 12, 37, 38, 54
High-Performance Computing and Communications....................     65
Hubble Space Telescope Repair Mission............................      4
Internet......................................................... 56, 65
Kennedy Space Flight Center...................................... 25, 26
Landsat data archive............................................. 59, 60
Lead Center concept..............................................     29
LightSAR program.................................................     57
Lockheed-Martin Corporation......................................     28
Marshall Space Flight Center.....................................      6
Minority university research.....................................     37
Mission to Planet Earth.......................................... 21, 56
Multi-year appropriations........................................     93
NASA Center's autonomy...........................................     53
NASA Student Program.............................................     21
National security................................................     44
National Space Policy............................................     71
Naval Research Laboratory..................................... 6, 32, 33
Near-Earth Asteroid Tracking..................................... 40, 41
New Millennium program........................................... 62, 63
Opening remarks:
    Chairman.....................................................   1, 2
    NASA Administrator........................................... 2, 4-5
Origins Technology program....................................... 63, 64
Potomac Institute study..........................................     45
Pratt and Whitney................................................     52
Privatization............................................ 43, 44, 47, 48
Procurement:
    Commercial services..........................................     67
    Innovative methods...........................................  68-70
Program redirection..............................................   9-10
Property/facilities overhead..................................... 53, 54
Propulsion testing facilities................................ 29, 30, 49
Questions for the record........................................ 126-285
Remote sensing...................................................     30
Reusable launch vehicles......................................... 24, 25
Russian collaboration............................. 1, 5, 6-8, 19, 20, 22
Senior Executive Service.........................................     24
Sounding rocket program.......................................... 61, 62
Space Shuttle:
    Multifunction Electronic Display System......................     51
    Orbiter Maintenance Down Period operations...................     25
    Propulsion upgrades..........................................     52
    Safety and performance upgrades..............................     50
    Systems integration.......................................... 52, 53
Space Station:
    Annual budget cap............................................     48
    Contingency plan--Interim/replacement modules...... 5, 6, 22, 32, 33
    FGB module............................................. 6, 22, 33-35
    Funding and costs.......................................... 7, 8, 35
    International cooperation.................................... 42, 43
    Launch schedule.................................... 7, 8, 22, 33, 34
    Russian contribution.............. 1, 5, 6-8, 19, 20, 22, 35, 36, 44
    Service Module schedule......................................  5, 22
Staffing:
    Employee buyouts.............................................  14-18
    Retraining program........................................... 10, 11
    Women and minority employees............. 10, 11, 23, 24, 31, 36, 37
Stennis Space Center..................................... 29, 30, 49, 50
Supporting research and technology............................... 62, 63
Technology transfer.......................................... 71, 72, 90
Television operations............................................ 91, 92
U.S. Geological Survey........................................... 59, 60
USA Company......................................................     47
Wake Shield Facility............................................. 66, 67
Wallops Flight Facility.......................................... 61, 62
Wind tunnels..................................................... 92, 93
X-33/X-34 launch vehicles:
    Budget request............................................... 27, 28
    General.................................................. 20, 21, 27
    Government versus private sector ownership................... 39, 40
    LASER experiment.............................................     45
Armstrong, Spence M., Associate Administrator for Human Resources 
  and Education..................................................     14
Goldin, Daniel S., Administrator.................................      2
    Prepared statement........................................... 95-116
Peterson, Malcolm L., Comptroller................................     13
Townsend, William F., Associate Administrator for Mission to 
  Planet Earth (Acting)..........................................     55
Trafton, Wilbur C., Associate Administrator for Space Flight.....      8
Whitehead, Robert E., Associate Administrator for Aeronautics and 
  Space Transportation Technology................................     10

                                 <all>                                  
</pre></body></html>
